APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:

Court of appeals opinion,
April 1, 2020 .................................................. 1a
District court opinion,
March 29, 2017 ............................................. 40a
Court of appeals order,
June 1, 2020 .................................................. 61a
List of opt-in plaintiffs ................................ 62a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Nos. 17-2208-cv, 18-359-cv

MAXCIMO SCOTT, on behalf of himself and
others similarly situated, JAY FRANCIS ENSOR,
CHRISTINE JEWEL GATELEY, KRYSTAL
PARKER, STACY HIGGS, EUFEMIA JIMENEZ,
MATHEW A. MEDINA,
Plaintiffs-Appellants,
v.
CHIPOTLE MEXICAN GRILL, INC., CHIPOTLE
SERVICES, LLC,
Defendants-Appellees.*

Filed: April 1, 2020
Before: PARKER and CHIN, and SULLIVAN, Circuit
Judges.
Appeal from an opinion and order of the United States
District Court for the Southern District of New York
(Carter, J.) in this hybrid class and collective action
brought on behalf of employees of a national restaurant
chain who claim they were denied overtime wages because
*

An additional 516 plaintiffs are listed in the attached Appendix.

(1a)

2a
they were misclassified as exempt employees. The district
court denied the employees’ motion for class certification
and granted the employer’s motion to decertify the conditionally certified collective action. The employees appeal,
contending that the district court erred in (1) denying
class certification on the basis of a lack of predominance
and superiority, and (2) granting decertification of the collective action on the ground that the named plaintiffs and
opt-in plaintiffs are not similarly situated.
AFFIRMED IN PART and VACATED IN PART.
Judge Sullivan concurs in part and dissents in part in
a separate opinion.
OPINION
CHIN, Circuit Judge.
Plaintiffs-appellants are seven named plaintiffs representing six putative classes under Federal Rule of Civil
Procedure 23(b)(3) (the “class plaintiffs”). Plaintiffs-appellants also sue on behalf of themselves and 516 individuals who opted in to a conditionally certified collective action (the “collective plaintiffs”) pursuant to the Fair Labor
Standards Act (the “FLSA”), 29 U.S.C. § 216(b). Class
plaintiffs are current and former “Apprentices” of defendants-appellees Chipotle Mexican Grill, Inc. and Chipotle
Services, LLC (together, “Chipotle”) who allege that
Chipotle misclassified them as exempt employees in violation of the labor laws in six states. Collective plaintiffs
are current and former Chipotle Apprentices who allege
that Chipotle misclassified them as exempt employees in
violation of the FLSA. As a result of Chipotle’s purported
misclassification, plaintiffs-appellants contend that they
were unlawfully denied overtime wages required under
state and federal law.

3a
On March 29, 2017, the district court denied class
plaintiffs’ class certification motion on the grounds that
class plaintiffs failed to meet the predominance and superiority requirements of Rule 23(b)(3). Scott v. Chipotle
Mexican Grill, Inc., No. 12-cv-8333, 2017 WL 1287512, at
*3-8 (S.D.N.Y. Mar. 29, 2017). In the same decision, the
district court granted Chipotle’s motion to decertify the
collective action on the grounds that collective plaintiffs
failed to establish that opt-in plaintiffs were “similarly situated” to the named plaintiffs as required for collective
treatment under the FLSA. Id. at *8-9.
On appeal, class plaintiffs principally argue that the
district court relied on erroneous law and clearly erroneous facts in determining that common questions of law or
fact did not predominate. Collective plaintiffs contend
that the district court erred in decertifying the collective
action because it relied on an erroneous view of the law—
namely, that the FLSA’s “similarly situated” inquiry
“mirrors” the Rule 23 analysis in rough proportion to the
number plaintiffs who have chosen to opt-in. For the reasons set forth below, we affirm the district court’s order
denying class certification, vacate the district court’s order decertifying the collective action, and remand for further proceedings.
BACKGROUND
I. THE FACTS
Chipotle operates over 2,000 restaurants in the United
States, serving burritos, tacos, salads, and more. To manage and operate its stores, Chipotle employs both salaried
and hourly workers. There are three categories of salaried employees—Restauranteurs, General Managers,
and Apprentices—not all of whom are necessarily employed at each Chipotle location. Chipotle locations also

4a
hire hourly workers, namely Service Managers, Kitchen
Managers, and crew. As of 2016, Apprentices earned a salary of between $38,000 and $51,500 and were eligible for
benefits such as bonuses, paid vacation, insurance, and retirement plans.
Chipotle describes the “principal responsibilities” of
the Apprentice position as “[l]eading the restaurant team
in successful day-to-day operations”; “[a]cting as General
Manager when General Manager is not present”; “[t]raining and developing the restaurant team”; “[e]suring that
employees are paid properly, receive appropriate benefits, and are prepared for additional career opportunities”; “[i]dentifying talent, interviewing, and hiring new
Crew”; “[p]articipating in personnel decisions regarding
the restaurant team”; “[w]riting schedules that meet the
needs of the business”; “[a]ssisting the General Manager
in performing administrative duties including payroll,
inventory, food ordering, proper cash handling, etc.”;
“[s]uccessfully communicating company changes/focus to
the team”; “[b]uilding sales and managing the restaurant
budget”; “[m]aintaining a clean restaurant with excellent
quality food and customer service”; and “[m]aintaining
cleaning and sanitation standards within the restaurant.”
J. App’x at 4246; see also id. at 4250. The parties dispute
whether Apprentices are in training to become General
Managers.
In or around 2011, Chipotle hired a consultant to opine
on the exempt status of Apprentices—that is, whether
Apprentices were entitled to overtime or were considered
“executive” or “managerial” employees and were therefore exempt from state and federal overtime laws. After
reviewing Chipotle’s uniform job description and conducting interviews with Apprentices at various locations, the

5a
consultant concluded that the Apprentice position is uniformly exempt from state and federal overtime laws
based on the “wage and hour” definition of an Executive.
The consultant looked to the following range of tasks of
Apprentices in making this determination: (1) hiring and
firing, (2) training, (3) scheduling, (4) payroll processing,
(5) writing and conducting performance reviews, (6) documenting performance, (7) cash handling, (8) managing
employees during manager’s absence, and (9) communicating corporate changes. The consultant’s report notes
that although Apprentices assist with manual labor, the
majority of Apprentice time is spent managing the dayto-day activities of the restaurant. Chipotle thereafter
classified all Apprentices throughout the country (except
those in California) as exempt from the overtime provisions of the FLSA and related state overtime laws based
on their salary, their actual duties, and Chipotle’s reasonable expectations regarding the duties performed.
II. PROCEDURAL HISTORY
Plaintiff-appellant Maxcimo Scott filed the initial complaint in this case on November 15, 2011. Following a series of amendments to the pleadings joining additional
plaintiffs and adding claims, on February 10, 2015, plaintiffs-appellants filed the operative third amended complaint, which alleges that Chipotle misclassified its Apprentice workers and denied them overtime pay in violation of the FLSA as well as state laws in Colorado, Illinois,
Missouri, New York, North Carolina, and Washington.
Class plaintiffs purport to represent six classes totaling
approximately 1,600 Apprentices1 who worked at Chipotle

The approximate number of represented individuals are based on
May 2016 estimates generated by Chipotle's Compliance and Field
People Support Director. This figure may have changed because the
1

6a
locations in the six states. Collective plaintiffs consist of
the seven named plaintiffs and 516 opt-in plaintiffs who
affirmatively consented to joining the FLSA suit after the
district court conditionally certified the collective action
on June 30, 2013.
On May 9, 2016, following several years of discovery—
including the taking of over 80 depositions and the submission of over 240 declarations—Chipotle moved to decertify the collective action on the grounds that the named
plaintiffs are not similarly situated to the opt-in plaintiffs.
That same day, class plaintiffs moved to certify six Rule
23(b)(3) classes corresponding to the six states in which
the class representatives worked. On March 29, 2017, the
district court issued an opinion and order denying class
plaintiffs’ motion for class certification and granting
Chipotle’s motion to decertify the collective action. See
generally Scott, 2017 WL 1287512. As to the motion for
class certification, the district court held that although
class plaintiffs satisfied Rule 23(a)’s threshold requirements of numerosity, commonality, typicality, and adequacy, Scott, 2017 WL 1287512, at *3, they failed to satisfy
Rule 23(b)(3)’s requirements of predominance and superiority, id. at *4-8. According to the district court, class
plaintiffs established commonality because “the question
of whether Apprentices were misclassified as exempt employees is common to all class members [and] can be answered with common proof.” Id. at *3. The court based
this determination on the fact that (1) “Chipotle uniformly
classified all Apprentices as exempt,” (2) “Chipotle has an
expectation that the core duties of the apprentice is the
same regardless of the market in which an Apprentice
classes are defined to include Apprentices employed through “the
date of final judgment.”

7a
works,” and (3) “Chipotle uses a single job description for
all Apprentices that lists ‘principal accountabilities.’” Id.
The district court found these facts to be “unquestionably
probative of whether an employee is properly classified as
exempt.” Id. (internal quotation marks omitted).
Ultimately, however, the district court concluded that
these common questions were outweighed by individualized ones surrounding each plaintiff’s primary duty under
Labor Department regulations. Id. at *4. The district
court summarized each of the named plaintiffs’ testimony
regarding their primary duty and found the testimony to
be “internally inconsistent and distinguishable.” Id. It
also analyzed the testimony of the opt-in plaintiffs as to a
number of the relevant Labor Department criteria for determining exemptions—involvement in personnel decisions, scheduling authority, employee supervision and
training, and amount of time spent on managerial tasks—
and found that the testimony “rang dissonantly from the
record,” as some Apprentices recounted independently
running their own stores while others testified to exercising very few, if any, managerial duties. Id. at *4-7. Thus,
while the “Apprentices’ range of managerial tasks” and
“range of manual labor tasks” were “similar,” the district
court concluded that the “disparate accounts from Apprentices” and the “individualized proof . . . needed to establish each class member’s entitlement to relief” rendered class plaintiffs’ claims ill-suited to the class action
procedures of Rule 23(b)(3). Id. at *4, 8.
With respect to Chipotle’s motion to decertify the collective action, the district court considered whether
named plaintiffs were “similarly situated” to the opt-in
plaintiffs by considering the following factors: “(1) disparate factual and employment settings of the individual

8a
plaintiffs; (2) defenses available to defendants which appear to be individual to each plaintiff; and (3) fairness and
procedural considerations counseling for or against collective action treatment.” Id. at *8 (citing Hernandez v.
Fresh Diet, Inc., No. 12-cv-4339, 2014 WL 5039431, at *3
(S.D.N.Y. Sept. 29, 2014)).2
In analyzing the first factor—disparate employment
settings—the district court noted that “[c]ourts have recognized that the ‘similarly situated’ analysis for purposes
of the FLSA certification can be viewed, in some respects,
as a sliding scale. In other words, the more opt-ins there
are in the class, the more the analysis under § 216(b) will
mirror the analysis under Rule 23.” Id. (quoting Indergit
v. Rite Aid Corp., 293 F.R.D. 632, 651 (S.D.N.Y. 2013)).
The court then concluded that “Apprentices had vastly
different levels and amounts of authority in exercising
managerial tasks” and noted that “disparities in job duties” are “axiomatic considering that the 516 opt-in plaintiffs worked at 37 states across Chipotle’s nine geographic
regions.” Id. at *8-9. The district court considered the second and third factors—defenses and procedural fairness—together, and concluded that “it would be difficult
for Chipotle to rely on ‘representative proof’ while asserting its defenses.” Id. at * 9. Accordingly, the district court
held that the named plaintiffs were not similarly situated
to opt-in plaintiffs and ordered the conditionally certified
collective action to be decertified and the claims of the optin plaintiffs to be dismissed without prejudice. Id. at *9.
2
In doing so, the district court was applying the second step of the
two-tier approach to determining whether named plaintiffs are similarly situated to op-in plaintiffs. See Glatt v. Fox Searchlight Pictures,
Inc., 811 F.3d 528, 540 (2d Cir. 2016). See pp. 27-28 infra. The district
court had applied step one when it conditionally certified the collective action on June 30, 2013.

9a
This appeal followed. We granted class plaintiffs leave
to appeal the denial of class certification pursuant to Rule
23(f), and we granted collective plaintiffs leave to appeal
pursuant to 28 U.S.C. § 1292(b).
DISCUSSION
We begin with an overview of hybrid FLSA and state
overtime misclassification suits. We then discuss the district court’s denial of class certification and decertification
of the FLSA collective action in turn.
I. HYBRID CLASS AND COLLECTIVE ACTIONS
“Because FLSA and [state law] claims usually revolve
around the same set of facts, plaintiffs frequently bring
both types of claims together in a single action using the
procedural mechanisms available under 29 U.S.C. § 216(b)
to pursue the FLSA claims as a collective action and under Rule 23 to pursue the [state law] claims as a class action under the district court’s supplemental jurisdiction.”
Shahriar v. Smith & Wollensky Rest. Grp. Inc., 659 F.3d
234, 244 (2d Cir. 2011).
In this hybrid class and collective action, plaintiffs
claim that they worked overtime, they were legally entitled under state and federal law to overtime pay, and
Chipotle denied them such payment. The crux of the dispute is whether plaintiffs were entitled to overtime under
the FLSA and state labor laws. The answer to this question turns on whether Chipotle improperly classified
plaintiffs as exempt employees under Labor Department
guidelines and parallel state law, “which in turn will require the district court to decide a number of subsidiary
questions,” Myers v. Hertz Corp., 624 F.3d 537, 548 (2d
Cir. 2010) (internal quotation marks omitted), as discussed below.

10a
A. The FLSA
Under the FLSA, employers are required to pay employees who work over forty hours per week “not less than
one and one-half times the regular rate at which [the employees are] employed” for those overtime hours. 29
U.S.C. § 207(a)(1). This requirement is subject to certain
exemptions based on employee classification. As relevant
here, the FLSA exempts from the overtime requirement
“employee[s] employed in a bona fide executive [or] administrative . . . capacity.” 29 U.S.C. § 213(a)(1).
Administrative regulations classify employees as “executive” if (1) they are “[c]ompensated on a salary or fee
basis,” (2) their “primary duty is management of the enterprise . . . or of a customarily recognized department or
subdivision thereof,” (3) they “customarily and regularly
direct[] the work of two or more other employees,” and
(4) they “ha[ve] the authority to hire or fire other employees or” if their “suggestions and recommendations” on
personnel decisions “are given particular weight.” 29
C.F.R. § 541.100(a). The second element—whether an employee’s primary duty is managerial in nature—generally
requires consideration of activities such as
interviewing, selecting, and training of employees; setting and adjusting their rates of pay and hours of
work; directing the work of employees; maintaining
production or sales records for use in supervision or
control; appraising employees’ productivity and efficiency for the purpose of recommending promotions
or other changes in status; handling employee complaints and grievances; disciplining employees; planning the work; determining the techniques to be used;
apportioning the work among the employees; determining the type of materials, supplies, machinery,
equipment or tools to be used or merchandise to be

11a
bought, stocked and sold; controlling the flow and distribution of materials or merchandise and supplies;
providing for the safety and security of the employees
or the property; planning and controlling the budget;
and monitoring or implementing legal compliance
measures.
29 C.F.R. § 541.102.
Regulations classify employees as “administrative” if
(1) they are “[c]ompensated on a salary basis,” (2) their
“primary duty is the performance of office or non-manual
work directly related to the management or general business operations of the employer or the employer’s customers,” and (3) their “primary duty includes the exercise
of discretion and independent judgment with respect to
matters of significance.” 29 C.F.R. § 541.200(a). The second element—whether the employee’s primary duty is directly related to management—requires consideration of
whether the employee “perform[s] work directly related
to assisting with the running or servicing of the business,
as distinguished . . . from working on a manufacturing production line or selling a product in a retail or service establishment.” 29 C.F.R. § 541.201(a).
The applicability of both exemptions turns on the “primary duty” of an employee. See 29. C.F.R. § 541.2 (providing that “[t]he exempt or nonexempt status of any particular employee must be determined on the basis of
whether the employee’s salary and duties meet the requirements of the regulations” defining executive and administrative employees). The regulations make clear that
these questions “should be resolved by examining the employees’ actual job characteristics and duties.” Myers, 624
F.3d at 548; see also 29 C.F.R. § 541.700(a) (providing that
determining an employee’s “primary duty” requires analysis of “all the facts in a particular case,” looking to the

12a
“principal, main, major or most important duty that the
employee performs”). Among other things, courts are to
consider the following factors in assessing an employee’s
primary duty:
the relative importance of the exempt duties as compared with other types of duties; the amount of time
spent performing exempt work; the employee’s relative freedom from direct supervision; and the relationship between the employee’s salary and the wages
paid to other employees for the kind of nonexempt
work performed by the employee.
29 C.F.R. § 541.700(a). Although the amount of time spent
performing exempt work is not dispositive, it “can be a
useful guide.” Id. § 541.700(b). “Thus, employees who
spend more than 50 percent of their time performing exempt work will generally satisfy the primary duty requirement.” Id.
“The exemption question under the FLSA is a mixed
question of law and fact. The question of how the employees spent their working time is a question of fact. The
question of whether their particular activities excluded
them from the overtime benefits of the FLSA is a question
of law.” Pippins v. KPMG, LLP, 759 F.3d 235, 239 (2d Cir.
2014) (quoting Ramos v. Baldor Specialty Foods, Inc., 687
F.3d 554, 559 (2d Cir. 2012)).
B. State Overtime Law
State exemption criteria in the six states implicated in
the class plaintiffs’ claims largely track the FLSA.3 In-

See N.Y. Comp. Codes R. & Regs. Tit. 12, §§ 146-1.4, 146-1.6; N.Y.
Lab. Law § 195 (New York); Mo. Rev. Stat. § 290.527.1 (Missouri);
820 Ill. Comp. Stat. § 105/4a (Illinois); N.C. Gen. Stat. § 95-25.22(a1);
3

13a
deed, Chipotle conceded below that state “executive/administrative exemption[s] . . . , unless specifically noted,
parallel the analysis set forth under the FLSA.” Dkt. No.
1100, at 22. There are, however, some minor differences.
As Chipotle notes, whereas under federal law the amount
of time an employee spends performing an activity is
merely “a useful guide” to determining that employee’s
primary duty, see 29 C.F.R. § 541.700(b), Colorado and
Washington have strict percentage limitations governing
how much time an employee can spend on non-exempt activities and still properly be considered an exempt employee, see 7 Colo. Code Regs. § 1103- 1.5(b) (providing
that overtime law only applies only if the employee spends
“a minimum of 50% of the workweek in duties directly related to supervision”); Wash. Admin. Code § 296-128510(5) (providing that overtime law applies only if the employee “does not devote as much as 40% . . . of his hours
worked . . . to activities which are not directly and closely
related” to the performance of managerial work). Thus,
the exemption analysis under state law is largely the same
as the analysis under the FLSA, subject to these minor
caveats.
II. DENIAL OF CLASS CERTIFICATION
Class plaintiffs argue that the district court, in concluding that they failed to establish predominance and superiority, committed legal error and relied on clearly erroneous facts. For the reasons that follow, we conclude
that the district court did not commit reversible error.

13 N.C. Admin. Code § 12.080 (North Carolina); see also Dejesus v.
HF Mgmt. Servs., LLC, 726 F.3d 85, 89 n.5 (2d Cir. 2013).

14a
A. Standard of Review
We review a district court order denying class certification for abuse of discretion as to the ultimate decision
and as to each of the Rule 23 requirements. Myers, 624
F.3d at 547. We review legal conclusions de novo and factual findings for clear error. Id. This standard means that
the district court “‘is empowered to make a decision—of
its choosing—that falls within a range of permissible decisions,’ and we will only find ‘abuse’ when the district
court’s decision ‘rests on an error of law or a clearly erroneous factual finding, or its decision cannot be located
within the range of permissible decisions.’” Id. (alterations omitted) (quoting Zervos v. Verizon N.Y., Inc., 252
F.3d 163, 169 (2d Cir. 2001)).
B. Applicable Law
Plaintiffs seeking certification of a Rule 23(b)(3) damages class action must first establish numerosity, commonality, typicality, and adequacy of representation, and
then predominance of common questions of law or fact
and the superiority of a class action over other procedures. Fed. R. Civ. P. 23(a), (b)(3). The “predominance”
requirement of Rule 23(b)(3) “tests whether proposed
classes are sufficiently cohesive to warrant adjudication
by representation.” Amchem Prods., Inc. v. Windsor, 521
U.S. 591, 623 (1997). The requirement is satisfied “if resolution of some of the legal or factual questions that qualify
each class member’s case as a genuine controversy can be
achieved through generalized proof, and if these particular issues are more substantial than the issues subject
only to individualized proof.” Moore v. PaineWebber, Inc.,
306 F.3d 1247, 1252 (2d Cir. 2002); see also Myers, 624
F.3d at 547.

15a
A court examining predominance must assess (1) “the
elements of the claims and defenses to be litigated,”
(2) “whether generalized evidence could be offered to
prove those elements on a class-wide basis or whether individualized proof will be needed to establish each class
member’s entitlement to relief,” and (3) “whether the
common issues can profitably be tried on a class[-]wide
basis, or whether they will be overwhelmed by individual
issues.” Johnson v. Nextel Commc’ns Inc., 780 F.3d 128,
138 (2d Cir. 2015).
The question whether employees are entitled to overtime under the FLSA is “a complex, disputed issue, and
its resolution turns on exemption, which in turn will require the district court to decide a number of subsidiary
questions involving whether plaintiffs fall within the Labor Department’s criteria for ‘employees employed in a
bona fide executive [or administrative] capacity.’” Myers,
624 F.3d at 548 (quoting 29 U.S.C. § 213(a)(1)). “Significantly, the regulations make clear that these questions
should be resolved by examining the employees’ actual job
characteristics and duties.” Id. “Economies of time, effort,
and expense in fully resolving each plaintiff’s claim will
only be served, and the predominance requirement satisfied, if the plaintiffs can show that some [of the subsidiary
questions necessary to determining exemption] can be answered with respect to the members of the class as a
whole through generalized proof and that those common
issues are more substantial than individual ones.” Id. at
549 (internal quotation marks and citations omitted).
C. Application
Class plaintiffs argue that the district court’s conclusion that predominance was not met was erroneous because the court (1) made clearly erroneous factual findings regarding the distinctions among class members, (2)

16a
rested its conclusion on an erroneous view of the law that
common questions cannot predominate if some workers
perform managerial tasks that others do not perform, and
(3) failed to weigh the individualized evidence against the
common evidence. We conclude that the district court did
not rest its decision on an error of law or a clear error of
fact. Nor did it abuse its discretion. Accordingly, we need
not address class plaintiffs’ superiority arguments. See
Myers, 624 F.3d at 548 (noting the “need only [to] address
the ‘predominance’ requirement” because the finding of a
lack of predominance was not error).
The district court began its predominance analysis by
acknowledging that “Apprentices’ range of managerial
tasks such as employment decisions, scheduling, inventory, performance evaluations” and “range of manual labor tasks such as working the line, serving customers,
prepping, grilling, and running the register” were “similar.” Scott, 2017 WL 1287512, at *4 (emphasis added). Indeed, this finding, combined with Chipotle’s uniform job
description and its uniform classification of Apprentices
as exempt employees, formed the basis of the district
court’s conclusion that class plaintiffs had established
commonality. See id. at *3. But the court went on to explain that although the range of tasks were largely the
same across class plaintiffs, the primary duty performed
by class plaintiffs—the dispositive question of the exemption inquiry—was not adequately similar. Id. at *4.
The court analyzed the testimony of the named plaintiffs regarding their primary duty and found that the testimony was “internally inconsistent and distinguishable
from one another.” Id. at *4. For example, whereas named
plaintiffs Scott and Parker did not have any say in hiring
and claimed no role in employee development or discipline, named plaintiffs Higgs and Medina made hiring and

17a
termination recommendations and trained employees. Id.
at *5.
The court also analyzed the testimony of putative class
members regarding four key categories of the “primary
duty” inquiry, “[n]otwithstanding the internally inconsistent testimony among the named Plaintiffs.” Id. at *6.
It concluded that the putative class members’ testimony
also “rang dissonantly from the record.” Id. As to personnel decisions, one of the tasks considered managerial
under Labor Department regulation, see 29 C.F.R.
§ 541.102, the district court found that while “[m]any apprentices played a significant role in personnel decisions,”
others “testified that they had no involvement” in such decisions, Scott, 2017 WL 1287512, at *6. As to scheduling
authority, also a task considered to be managerial under
Labor Department guidelines, see 29 C.F.R. § 541.102, the
district court found that while “[s]ome Apprentices prepared and disbursed schedules without . . . approval from
higher management,” others “did not perform this managerial task, because they did not believe they had the authority to do so,” Scott, 2017 WL 1287512, at *6. The district court found similar inconsistencies across the testimony of the putative class members with respect to two
other important consideration under the guidelines: employee supervision and training, and the amount of time
spent on managerial tasks. See id. at *7-8.
On the basis of these factual determinations, the district court concluded that despite the common questions
of fact—including Chipotle’s blanket classification of Apprentices, the outside consultant’s analysis concerning exemption, the uniform Apprentice job description, and
Chipotle’s expectation that Apprentices perform the same
responsibility—“[t]he disparate accounts from Apprentices prove[d] fatal to the predominance inquiry.” Id. at

18a
*8. Thus, the district court concluded that class plaintiffs
failed to meet their burden of proving predominance.
Class plaintiffs argue that this conclusion rested on
clearly erroneous factual findings. We are not persuaded.
Although nominally an argument about clearly erroneous
facts, this assertion boils down to a disagreement with the
district court’s ultimate conclusion. We can discern no
clearly erroneous facts relied upon in the district court’s
analysis; it based its legal conclusion on a fair interpretation of the facts after thoroughly parsing the voluminous
record in the case. While reasonable minds could disagree, on the record before us we cannot say that the district court’s factual findings were clearly erroneous or
that its conclusion was outside the range of permissible
decisions.
Class plaintiffs also argue, in cursory fashion, that the
district court committed legal error by (a) assuming that
common questions cannot predominate if some workers
perform managerial tasks that others do not perform and
(b) failing to weigh the individualized evidence against the
common evidence. We disagree that the district court
committed such errors. It correctly cited the law of class
certification and applied that law to the facts of the case.
It concluded that predominance was not met only after
weighing the individualized issues against the common
ones and concluding that the individualized issues proved
“fatal” to the balancing. Scott, 2017 WL 1287512, at *8.
Like class plaintiffs’ argument that the district court
clearly erred in its construction of the facts, these legal
arguments are, in effect, an effort to couch class plaintiffs’
disagreement with the district court’s reasoned decision
as an error of law. But, as discussed above, the district
court’s conclusion fell within the range of permissible decisions committed to its discretion.

19a
Accordingly, we affirm the district court’s denial of
class plaintiffs’ motion to certify the proposed class actions.
III. COLLECTIVE ACTION DECERTIFICATION
Collective plaintiffs principally argue that the district
court committed legal error by improperly analogizing
the standard for maintaining a collective action under the
FLSA to Rule 23 procedure, and relying on that improper
analogy in concluding that named plaintiffs and opt-in
plaintiffs are not “similarly situated.” For the reasons that
follow, we agree.
A. Standard of Review
We have not ruled on the appropriate standard of review to be applied to a district court’s decertification of a
conditionally certified collective action. The parties agree,
as do we, that “[l]ike the district court’s certification determination pursuant to Rule 23,” we review its decision
to decertify an FLSA collective action for abuse of discretion. See Glatt v. Fox Searchlight Pictures, Inc., 811 F.3d
528, 539 (2d Cir. 2015). Thus, “we will only find ‘abuse’
when the district court’s decision ‘rests on an error of law
or a clearly erroneous factual finding, or its decision cannot be located within the range of permissible decisions.’”
Myers, 624 F.3d at 547 (alterations omitted) (quoting Zervos, 252 F.3d at 169). We review de novo the district
court’s selection and application of the legal standards
that led to its conclusion to decertify. Parker v. Time
Warner Entm’t Co., 331 F.3d 13, 18 (2d Cir. 2003) (discussing Rule 23 standard of review).
B. Applicable Law
The FLSA provides that an action to recoup unpaid
overtime wages

20a
may be maintained against any employer . . . by any
one or more employees for and in behalf of himself or
themselves and other employees similarly situated.
No employee shall be a party plaintiff to any such action unless he gives his consent in writing to become
such a party and such consent is filed in the court in
which such action is brought.
29 U.S.C. § 216(b) (emphasis added). The Supreme Court
has characterized § 216(b) as a “joinder process.” Genesis
Healthcare Corp. v. Symczyk, 569 U.S. 66, 75 n.1 (2013).
Rather than providing for a mere procedural mechanism,
as is the case with Rule 23, § 216(b) establishes a “right
. . . to bring an action by or on behalf of any employee, and
[a] right of any employee to become a party plaintiff to
any such action,” so long as certain preconditions are met.
29 U.S.C. § 216(b) (emphasis added); see also HoffmanLa Roche Inc. v. Sperling, 493 U.S. 165, 173 (1989) (noting
that Congress gave employees the “right” to proceed collectively)
One of the principal conditions to proceeding collectively under § 216(b) is that the named plaintiffs be “similarly situated” to the opt-in “party plaintiff[s].” See 29
U.S.C. § 216(b). Procedurally, we have endorsed a twostep process for certifying FLSA collective actions based
on the “similarly situated” requirement:
At step one, the district court permits a notice to be
sent to potential opt-in plaintiffs if the named plaintiffs
make a modest factual showing that they and others
together were victims of a common policy or plan that
violated the law. At step two, with the benefit of additional factual development, the district court determines whether the collective action may go forward by
determining whether the opt-in plaintiffs are in fact
similarly situated to the named plaintiffs.

21a
Glatt, 811 F.3d at 540 (citing Myers, 624 F.3d at 555). Substantively, however, we have said little regarding what it
means to be “similarly situated” and how district courts
should analyze whether named and party plaintiffs are so
situated, particularly at Step Two.
1. The “Similarly Situated” Requirement
The FLSA does not define the term “similarly situated.” The Supreme Court, analyzing the same “similarly
situated” standard of § 216(b) that is incorporated into
both the FLSA and the Age Discrimination in Employment Act (the “ADEA”), has held that Congress’s goal in
granting employees the right to proceed as a collective
was to provide them “the advantage of lower individual
costs to vindicate rights by the pooling of resources.”
Hoffmann-La Roche Inc., 493 U.S. at 170. This results in
the “efficient resolution in one proceeding of common issues of law and fact arising from the same alleged” FLSA
violation. See id.
This result—the efficient resolution in one proceeding
of common issues of law and fact arising from the same
alleged FLSA violation—can only be achieved to the extent that named plaintiffs and opt-in plaintiffs share one
or more issues of law or fact that are material to the disposition of their FLSA claims. Thus, to be “similarly situated” means that named plaintiffs and opt-in plaintiffs are
alike with regard to some material aspect of their litigation. See Campbell v. City of Los Angeles, 903 F.3d 1090,
1114 (9th Cir. 2018). That is, party plaintiffs are similarly
situated, and may proceed in a collective, to the extent
they share a similar issue of law or fact material to the
disposition of their FLSA claims.4 It follows that if named
In contending that we have “equat[ed] ‘similarly situated’ with
‘any similarity,’” Dissent at 2, the Dissent criticizes a standard that—
4

22a
plaintiffs and party plaintiffs share legal or factual similarities material to the disposition of their claims, “dissimilarities in other respects should not defeat collective
treatment.” Id. If the opt-in plaintiffs are similar to the
named plaintiffs in some respects material to the disposition of their claims, collective treatment may be to that
extent appropriate, as it may to that extent facilitate the
collective litigation of the party plaintiffs’ claims.5
This similarly situated standard is consistent with that
endorsed by our sister circuits as well as district courts
within this circuit. See, e.g., Campbell, 903 F.3d at 1117
(holding that, at Step Two, “[p]arty plaintiffs are similarly
situated, and may proceed in a collective, to the extent
they share a similar issue of law or fact material to the
disposition of their FLSA claims”); Halle v. W. Penn Allegheny Health Sys. Inc., 842 F.3d 215, 226 (3d Cir. 2016)
(noting that, at Step Two, “[b]eing ‘similarly situated’
means that one is subjected to some common employer
practice that, if proved, would help demonstrate a violation of the FLSA” (internal quotation marks omitted));
McGlone v. Contract Callers, Inc., 49 F. Supp. 3d 364, 367
(S.D.N.Y. 2014) (noting that, at Step Two, named and optin plaintiffs are similarly situated to the extent they “were
although helpful to the critique—is nowhere to be found in our text.
As clearly set forth above, we do not hold that the named plaintiffs
and opt-in plaintiffs are “similarly situated” for purposes of a collective action under 29 U.S.C. § 216(b) when they share “any similarity”;
rather, we hold that the standard is met when there is similarity with
respect to “an issue of law or fact material to the disposition of their
FLSA claim.” Contrary to the Dissent's assertions, the standard established here is meaningfully circumscribed.
5
District courts are well equipped to manage cases in this way. For
example, Rule 42 provides for the possibility of partial consolidation
for trial, to the extent separate actions involve common questions of
law or fact. Fed. R. Civ. P. 42(a)(1).

23a
common victims of a FLSA violation pursuant to a systematically-applied company policy or practice such that
there exist common questions of law and fact that justify
representational litigation” (quoting Pefanis v. Westway
Diner, Inc., No. 08-cv-7813, 2010 WL 3564426, at *4
(S.D.N.Y. Sept. 7, 2010)); see also Newberg on Class Actions § 23:39 (5th ed. 2017) (noting that under § 216(b), the
plaintiffs must demonstrate that they have all been “subjected to some common employer practice that, if proved,
would help demonstrate a violation of the FLSA”).6
2. The “Ad Hoc” Approach
The majority of courts in this Circuit, including the
district court below, employ what has been termed an “ad
hoc” approach to the similarly situated inquiry at Step
Two.7 Under this flexible approach, courts consider the
“(1) disparate factual and employment settings of the individual plaintiffs; (2) defenses available to defendants

The Dissent goes to great lengths to distinguish these cases and
argue that the standard we set forth today is “newly minted.” Dissent
at 1. But providing clarity is not making something new. The standard
we adopt here is plainly compelled by the statutory text and Supreme
Court precedent and has been endorsed by courts outside of this circuit along with lower courts within this Circuit. In selectively quoting
language from these opinions to argue that they nonetheless employ
elements of the ad hoc test, see Dissent at 4-5, the Dissent only further underscores the absence of a clear standard, and the need for
clear guidance from this Court.
6

7
The ad hoc approach appears to have originated in Lusardi v.
Xerox Corp., 118 F.R.D. 351 (D.N.J. 1987), in the context of an ADEA
claim. There, the district court considered collective plaintiffs’ “disparate employment situations”; defendant’s “defenses and the applicability of the defenses to the instant facts”; and, more generally,
“considerations of fairness [and] efficiency” in concluding that collective plaintiffs were not similarly situated at Step Two. Id. at 361-72.

24a
which appear to be individual to each plaintiff; and (3) fairness and procedural considerations counseling for or
against collective action treatment.” See, e.g., Buehlman
v. Ide Pontiac, Inc., 345 F. Supp. 3d 305, 313 (W.D.N.Y.
2018). Thus, rather than considering the ways in which the
opt-in plaintiffs are similar in ways material to the disposition of their FLSA claims, district courts employing the
ad hoc factors consider the ways in which the plaintiffs are
factually disparate and the defenses are individualized.
We question whether the ad hoc approach is consistent
with the notion that party plaintiffs are similarly situated,
and may proceed in a collective, to the extent they share a
similar issue of law or fact material to the sight of the statute underlying it” by “tend[ing] to explain what the term
‘similarly situated’ does not mean [rather than] what it
does” mean. Campbell, 903 F.3d at 1114. Second, its
“open-ended inquiry into the procedural benefits of collective action invites courts to import, through a back door,
requirements with no application to the FLSA,” like Rule
23(a)’s requirements of adequacy and typicality and Rule
23(b)(3) requirements of superiority and predominance.
Id. at 1115. This flaw undermines what is supposed to be
one of the chief advantages of the ad hoc approach, that
“it is not tied to the Rule 23 standards.” Thiessen v. Gen.
Electric Capital Corp., 267 F.3d 1095, 1105 (10th Cir.
2001); accord Morgan v. Family Dollar Stores, Inc., 551
F.3d 1233, 1260 n.38 (11th Cir. 2008) (citing cases); Scott,
2017 WL 1287512, at *8 (employing the ad hoc approach
“[t]o avoid conflating § 216(b) collective certification with
Rule 23”). Indeed, as discussed below, the district court’s
ad hoc analysis in this case suffered from this very flaw.
It imported through the back door “requirements with no
application to the FLSA”—namely, that because there
were a relatively large number of opt-in plaintiffs, the
“similarly situated” inquiry “mirrored” the requirements

25a
of Rule 23. See infra Part III.C. We discuss this “sliding
scale” analogy to Rule 23 in more detail.
3. The “Sliding Scale” Analogy
Some district courts in this circuit, including the district court below, have grafted onto the ad hoc approach
additional considerations. One such consideration is what
collective plaintiffs describe as a “sliding scale” analogy,
because the district courts employing the analogy reason
that “[t]he similarly situated analysis can be viewed, in
some respects, as a sliding scale.” Gardner v. W. Beef
Props., Inc., No. 7-cv-2345, 2013 WL 1629299, at *4, 6
(E.D.N.Y. Mar. 25, 2013). The analogy is straightforward:
“The more opt-ins there are in the class, the more the
analysis under § 216(b) will mirror the analysis under
Rule 23.” Id. at *6. As a result, the court will import the
more rigorous requirements of Rule 23 into the similarly
situated inquiry in rough proportion to the number plaintiffs who have chosen to opt-in. In so doing, the courts relying on this analogy conflate the requirements for class
certification under Rule 23 with the requirements to proceed as a collective under § 216(b).8
8
See, e.g., Mendez v. U.S. Nonwovens Corp., No. 12-5583, 2016 WL
1306551, at *4 (E.D.N.Y. Mar. 31, 2016) (noting that “[a]lthough the
standard for establishing that the collective members are similarly
situated under the FLSA is less stringent than the Rule 23 commonality standard, courts in this district have noted that these two standards are functionally similar”); Ruiz v. CitiBank, N.A., 93 F. Supp. 3d
279, 298-99 (S.D.N.Y. 2015) (noting the “harmony of animating principles” underlying collective actions under § 216(b) and class actions
proceeding under Rule 23); Indergit v. Rite Aid Corp., 293 F.R.D.
632, 651 (S.D.N.Y. 2013) (noting that although “conditional certification, decertification, and Rule 23 class certification are subject to disparate legal standards,” courts nonetheless “have recognized that the
‘similarly situated’ analysis for purposes of FLSA certification can be
viewed, in some respects, as a sliding scale”).

26a
This has led, in turn, to “courts assessing the predominance requirement . . . almost always reach[ing] the same
conclusion about whether proceeding collectively is
appropriate.” Whilliam C. Jhaveri-Weeks & Austin
Webbert, Class Actions Under Rule 23 and Collective Actions Under the Fair Labor Standards Act, 23 Geo. J. on
Poverty L. & Pol’y 233, 264 (2016); see also Ruiz v. CitiBank, N.A., 93 F. Supp. 3d 279, 298-99 (S.D.N.Y. 2015)
(“[I]t is not mere coincidence that courts facing parallel
motions to decertify an FLSA collective action under
Section 216(b) and to certify a class action under Rule 23
have tended to allow either both actions or neither to proceed on a collective basis.”).
For the reasons discussed below, we hold that analogies to Rule 23, including the sliding scale analogy, are inconsistent with the language of § 216(b) and that the question of whether plaintiffs may proceed as a collective under the FLSA is to be analyzed under the separate and
independent requirements of § 216(b).
First and foremost, it is already well established that
the FLSA’s “similarly situated” requirement is “independent of, and unrelated to” Rule 23’s requirements,
Kern v. Siemens Corp., 393 F.3d 120, 128 (2d Cir. 2004),
and that it is “quite distinct” from “the much higher
threshold of demonstrating that common questions of law
and fact will ‘predominate’ for Rule 23 purposes,” Myers,
624 F.3d at 555-56. Nearly every circuit to consider the
relationship between the modern Rule 23 and § 216(b) has
reached the same conclusion. See Campbell, 903 F.3d at
1111 (holding that § 216(b) analogies to Rule 23 “lack[]
support in either the FLSA or the Federal Rules of Civil
Procedure”); Calderone v. Scott, 838 F.3d 1101, 1104 (11th
Cir. 2016) (describing Rule 23 as “more demanding” than
§ 216(b)); O’Brien v. Ed Connelly Enters., Inc., 575 F.3d

27a
567, 584-85 (6th Cir. 2009) (describing Rule 23 as “a more
stringent standard” than § 216(b)); Thiessen v. Gen. Electric Capital Corp., 267 F.3d 1095, 1105 (10th Cir. 2001)
(“Congress clearly chose not to have the Rule 23 standards apply to [collective actions], and instead adopted the
‘similarly situated’ standard. To now interpret this ‘similarly situated’ standard by simply incorporating the requirements of Rule 23 . . . would effectively ignore Congress’ directive.”); LaChapelle v. Owens-Illinois, Inc., 513
F.2d 286, 289 (5th Cir. 1975) (describing actions under
§ 216(b) and Rule 23 as “mutually exclusive and irreconcilable”); see also Lusardi v. Lechner, 855 F.2d 1062, 1078
(3d Cir. 1988). But see Espenscheid v. DirectSat USA,
LLC, 705 F.3d 770, 772 (7th Cir. 2013) (noting that “the
provisions of Rule 23 are intended to promote efficiency
. . . , and in that regard are as relevant to collective actions
as to class actions” because “there isn’t a good reason to
have different standards for the certification of the two
different types of action[s]”).
This conclusion is supported by the language and
structure of § 216(b) and the modern Rule 23, which bear
little resemblance to each other. Compare 29 U.S.C.
§ 216(b), with Fed. R. Civ. P. 23. Under § 216(b) of the
FLSA, employees have a right to maintain a collective action “for and in behalf of . . . themselves and other employees similarly situated.” Section 216(b) has nothing comparable to Rule 23(b)(3)’s requirements of predominance or
superiority. And Rule 23’s requirements of adequacy and
typicality are intended to protect the due process rights
of absent class members, which is not a consideration in a
nonrepresentative action such as a collective action under
§ 216(b). See Phillips Petroleum Co. v. Shutts, 472 U.S.
797, 811-12 (1985); see also Campbell, 903 F.3d at 1112.
Indeed, Congress amended § 216(b) in 1947 expressly to
put an end to representational litigation in the context of

28a
actions proceeding under §216(b), and at the same time
required that workers affirmatively opt-in by filing written consent as a condition to proceeding as a collective.
Compare Fair Labor Standards Act of 1938, ch. 676, 52
Stat. 1060, 1069 (1938) (codified at 29 U.S.C. § 216(b))
(providing that employees proceeding under § 216(b) may
“designate an agent or representative to maintain such
action for and in behalf of all employees similarly situated”), with Portal to Portal Act of 1947, Pub. L. No. 8049, 61 Stat. 84, 87 (1947) (codified at 29 U.S.C. § 216(b)
(1946 Supp. II)) (banning representative actions and
providing that “[n]o employee shall be a party plaintiff to
any such action unless he gives consent in writing to become such a party and such consent is filed in the court in
which such action is brought”).
In 1966, Rule 23 was amended to resemble its modern
form, including for the first time Rule 23(a)’s requirements of commonality, typicality, numerosity, and adequacy, and Rule 23(b)(3)’s requirements of predominance
and superiority. Fed. R. Civ. P. 23 (1966). Along with
these revisions, the drafters also omitted the opt-in requirement contained in the former “spurious” class action
device and replaced it with Rule 23(b)(3)’s opt-out requirement. Id. The opt-out requirement of the modern Rule
23(b)(3) directly conflicts with the express opt-in requirement of § 216(b). Accordingly, the drafters of the 1966 revisions explicitly noted that “the present provisions of
[§ 216(b)] are not intended to be affected.” Fed. R. Civ. P.
23 advisory committee’s notes to 1966 amendment; see
also Knepper v. Rite Aid Corp., 675 F.3d 249, 257 (3d Cir.
2012).
Moreover, Rule 23 and § 216(b) serve fundamentally
different purposes. Rule 23 provides a general procedural

29a
mechanism for the resolution of claims on a class-wide basis subject to the sound discretion of the district court. See
Fed. R. Civ. P. 23. Section 216(b), by contrast, is tailored
specifically to vindicating federal labor rights, and where
the conditions of § 216(b) are met, employees have a substantive “right” to proceed as a collective, a right that does
not exist under Rule 23. See 29 U.S.C. § 216(b); see also
Hoffman-La Roche, 493 U.S. at 173; Monroe v. FTS USA,
LLC, 860 F.3d 389, 396-97 (6th Cir. 2017); O’Brien, 575
F.3d at 586.
We conclude by noting that “the FLSA not only imposes a lower bar than Rule 23, it imposes a bar lower in
some sense even than Rules 20 and 42, which set forth the
relatively loose requirements for permissive joinder and
consolidation at trial.” Campbell, 903 F.3d at 1112.
“Whereas [Federal Rules of Civil Procedure] 20 and 42
allow district courts discretion in granting joinder or consolidation, the FLSA, which declares a right to proceed
collectively on satisfaction of certain conditions, does not.”
Id.; see also O’Brien, 575 F.3d at 584- 85; Grayson, 79
F.3d at 1095-96; Lusardi, 855 F.2d at 1078. Furthermore,
joinder under Rule 20 requires, in addition to a common
question of law or fact, that the plaintiffs assert a right to
relief arising from “the same transaction[] [or] occurrence[].” Fed. R. Civ. P. 20(a)(1)(A). No such condition exists in the text of the FLSA. See 29 U.S.C. § 216(b); see
also Campbell, 903 F.3d at 1112.
For these reasons, we hold that the requirements for
certifying a class under Rule 23 are unrelated to and more
stringent than the requirements for “similarly situated”
employees to proceed in a collective action under § 216(b).
Accordingly, it is error for courts to equate the requirements of § 216(b) with those of Rule 23 in assessing

30a
whether named plaintiffs are “similarly situated” to optin plaintiffs under the FLSA.
C. Application
Collective plaintiffs principally argue that the district
court committed legal error in employing the “sliding
scale” analogy to Rule 23 as it improperly conflated
§ 216(b) with Rule 23 and that rule’s more stringent requirements. We agree.
After citing to the two-step approach endorsed by this
Court in Myers, the district court proceeded to analyze
whether collective plaintiffs were similarly situated using
the ad hoc factors. Scott, 2017 WL 1287512, at *8. In its
discussion of the ad hoc factors, the district court noted
that their use is intended “[t]o avoid conflating § 216(b)
collective certification with Rule 23.” Id.
Despite this disclaimer, however, in the very next sentence of the opinion the district court did just that—conflated § 216(b) with Rule 23—in analyzing the first ad hoc
factor. The district court began its discussion of collective
plaintiffs’ disparate employment settings by noting that
“[c]ourts have recognized that the ‘similarly situated’
analysis for purposes of the FLSA certification can be
viewed, in some respects, as a sliding scale. In other
words, the more opt-ins there are in the class, the more
the analysis under § 216(b) will mirror the analysis under
Rule 23.” Id. (quoting Indergit, 293 FR.D. at 651). In doing so, the district court imported through the back door
of this ad hoc approach the more stringent requirements
of Rule 23, which have no application to the FLSA.
The district court assumed that the size of the collective required a heightened level of scrutiny mirroring
Rule 23, which necessarily weighed in favor of decertifica-

31a
tion—particularly because the district court had concluded earlier in the same opinion that class plaintiffs
failed to establish predominance under Rule 23. Indeed,
after invoking the “sliding scale” analogy, the court proceeded to reference its conclusion with respect to predominance that “Apprentices had vastly different levels and
amounts of authority in exercising managerial tasks.” Id.
The district court then held that “disparities in job duties”
are “axiomatic considering that the 516 opt-in plaintiffs
worked at 37 states across Chipotle’s nine geographic regions.” Id. at *9. On this basis, the district court decertified the collective action.
This was error. In effect, the district court held that
collective plaintiffs could not be similarly situated because
class plaintiffs’ common issues did not predominate over
individualized ones. It is simply not the case that the more
opt-ins there are in the class, the more the analysis under
§ 216(b) will mirror the analysis under Rule 23. Supra
Part III.B.3; see also O’Brien, 575 F.3d at 584-85 (holding
that the district court erred when it “implicitly and improperly applied a Rule 23-type analysis” to the FLSA);
Morgan, 551 F.3d at 1265 (noting that “the size of an
FLSA collective action does not, on its own, compel the
conclusion that” it should not be maintained). Accordingly, we vacate the district court’s decertification of the
collective action and remand.
On remand, the district court shall reconsider whether
named plaintiff and opt-in plaintiffs are “similarly situated”—that is, whether they share one or more similar
questions of law or fact material to the disposition of their
FLSA claims. In doing so, the district court shall take into
account its conclusion with respect to commonality that
“the question of whether Apprentices were misclassified

32a
as exempt employees is common to all class members because it can be answered with common proof.” Scott, 2017
WL 1287512, at *3. This conclusion was based on the district court’s findings that (1) “Chipotle uniformly classified all Apprentices as exempt,” (2) “Chipotle has an expectation that the core duties of the Apprentice is the
same,” and (3) “Chipotle uses a single job description for
all Apprentices.” Id. (internal quotation marks omitted).
These facts, the court concluded, are “unquestionably
probative of whether an employee is properly classified as
exempt. “ Id. (internal quotation marks omitted).
Though these findings were made with respect to the
class plaintiffs, and though courts may not import the requirements of Rule 23 into their application of § 216(b) in
assessing whether named plaintiffs and opt-in plaintiffs
are similarly situated under the FLSA, these findings are
relevant to collective plaintiffs’ argument that they are
similarly situated. Indeed, the “common question” requirement of Rule 23(a) and the “similarly situated” requirement of § 216(b) serve comparable ends: to identify
those shared issues that will collectively advance the litigation of multiple claims in a joint proceeding.9 And as the

9
In analyzing commonality under Rule 23(a), “[w]hat matters . . .
is not the raising of common ‘questions’—even in droves—but, rather
the capacity of a classwide proceeding to generate common answers
apt to drive the resolution of the litigation.” Wal-Mart Stores, Inc. v.
Dukes, 564 U.S. 338, 350 (2011). In analyzing whether the “similarly
situated” requirement is met under § 216(b), what matters is the extent to which named plaintiffs and opt-in plaintiffs share a similar issue of law or fact material to the disposition of their FLSA claims. See
infra Part III.B.1.

We caution that despite these similarities, courts should not overly
rely on Dukes and other class action case law in considering collective

33a
district court correctly noted, “the differences in the actual job duties of Apprentices are ‘better suited to the predominance inquiry . . . together with an analysis of the
Rule 23(b)(3) factors.’” Chipotle, 2017 WL 1287512, at *3
(quoting Jacob v. Duane Reade, Inc., 289 F.R.D. 408, 415
(S.D.N.Y. 2013)). Thus, as the district court seems to
acknowledge, these differences will not prove fatal to the
“similarly situated” analysis in the same way they proved
fatal to the predominance inquiry in this case. If named
plaintiffs and opt-in plaintiffs are similar in some respects
material to the disposition of their claims, collective treatment may be to that extent appropriate, as it may to that
extent facilitate the collective litigation of collective plaintiffs’ claims.
Because the district court conflated the standards for
maintaining a collective action under § 216(b) and a class
action under Rule 23, we vacate the decision of the district
court and remand for further proceedings consistent with
this opinion.
CONCLUSION
Accordingly, we AFFIRM the district court’s denial of
class certification as to class plaintiffs’ claims, we VACATE the district court’s decertification of the collective
action, and we REMAND for further proceedings consistent with this opinion.
SULLIVAN, Circuit Judge, concurring in part and dissenting in part:

actions. See 7B Wright & Miller, Fed. Prac. & Proc. Civ. § 1807 (observing that district courts have “uniformly” rejected the argument
that Dukes affects the FLSA’s “similarly situated” requirement).

34a
While I concur in Parts I and II of the majority’s decision, I respectfully dissent with respect to Part III. Specifically, I disagree with the majority regarding the
proper standard to be applied in determining whether
plaintiffs are “similarly situated” for the purposes of a collective action under 29 U.S.C § 216(b). Furthermore, I believe that the district court’s decertification of the collective action was not an abuse of discretion when judged
against the correct standard. Accordingly, I would affirm
the district court’s ruling in its entirety.
I.
First, the majority’s newly minted definition of “similarly situated”—i.e., that “named plaintiffs and opt-in
plaintiffs share one or more issues of law or fact that are
material to the disposition of their FLSA claims” regardless of any “dissimilarities in other respects,” Maj. Op. at
29 (emphasis added)—has no basis in the text of the statute. As the majority concedes, the FLSA nowhere defines
the term “similarly situated,” leaving the words to be interpreted in accordance with their plain meaning and the
reasoned judgment of district judges tasked with assessing the universe of facts available in a given case.
Common sense would suggest that “similarly situated” often requires more than the sharing of a single fact or legal
issue, and that the existence of multiple dissimilarities
would be highly relevant to the inquiry. The majority’s
definition—equating “similarly situated” with “any similarity”—lowers the bar for collective actions, and reduces
district courts to mere bystanders rather than gatekeepers.
Unlike the majority, I do not view the differences between Rule 23 and § 216(b) as supporting the “any similarity” standard. To be sure, the standards under Rule 23
and § 216(b) are wholly “independent of, and unrelated to”

35a
one another, Kern v. Siemens Corp., 393 F.3d 120, 128 (2d
Cir. 2004) (quoting Grayson v. K Mart Corp., 79 F.3d
1086, 1096 n.12 (11th Cir. 1996)), and the requirements of
§ 216(b) are less stringent than those of Rule 23, see
Myers v. Hertz Corp., 624 F.3d 537, 555–56 (2d Cir. 2010),
in part because courts are not faced with the same due
process concerns regarding absent class members that
they face in a class action under Rule 23, see Hoffman v.
Sbarro, Inc., 982 F. Supp. 249, 263 n.17 (S.D.N.Y. 1997)
(Sotomayor, J.) (observing that Rule 23 is designed in part
to protect the due process rights of absent class members,
a concern that is not present in the FLSA context). Nevertheless, I am not convinced that Rule 23 and § 216(b)
serve “fundamentally different purposes,” Maj. Op. at 38,
or that their differences are so substantial as to make the
“similarly situated” requirement of § 216(b) a mere formality. “Section 216(b) of the FLSA and Rule 23(b)(3) are
animated by similar concerns about the efficient resolution of common claims.” Calderone v. Scott, 838 F.3d 1101,
1103 (11th Cir. 2016). While plaintiffs must make an additional showing to be certified as a class under Rule 23, neither plaintiffs nor the court would be significantly benefited if plaintiffs were allowed to proceed collectively despite having drastically different material facts or different legal claims simply because they share a single common fact or legal issue. See Hoffmann-La Roche, Inc. v.
Sperling, 493 U.S. 165, 170 (1989) (“A collective action allows . . . plaintiffs the advantage of lower individual costs
to vindicate rights by the pooling of resources. The judicial system benefits by efficient resolution in one proceeding of common issues of law and fact arising from the
same alleged discriminatory activity.” (emphasis
added)); see also Zavala v. Wal Mart Stores Inc., 691 F.3d
527, 538 (3d Cir. 2012) (explaining that “simply sharing a

36a
common status, like being an illegal immigrant,” and being subject to a “common scheme” does not amount to being “similarly situated” if “[l]iability and damages still
need to be individually proven”). Although the majority is
undoubtedly correct that “where the conditions of § 216(b)
are met, employees have a substantive ‘right’ to proceed
as a collective,” Maj. Op. at 38, plaintiffs must, as a threshold matter, actually satisfy those conditions—including
that they are “similarly situated.” Where they cannot, employees will nonetheless continue to have an incentive to
bring FLSA suits individually, particularly since prevailing plaintiffs will still be entitled to attorneys’ fees under
the statute even if the damages award is modest. See
Fisher v. SD Prot. Inc., 948 F.3d 593, 604 (2d Cir. 2020)
(emphasizing that there is no requirement that attorneys’
fees be proportional to the settlement amount, as “[t]he
whole purpose of fee-shifting statutes is to generate attorneys’ fees that are disproportionate to the plaintiff’s recovery” (emphasis omitted) (quoting Millea v. Metro-N.
R. Co., 658 F.3d 154, 169 (2d Cir. 2011)).
I am equally unpersuaded by the majority’s critique of
the ad hoc test employed by the district court and many
other courts around the country. Maj. Op. at 31. Most of
the cases cited by the majority are readily distinguishable, and do in fact assess some of the factors identified under the so-called ad hoc test. See Halle v. W. Penn Allegheny Health Sys. Inc., 842 F.3d 215, 226 (3d Cir. 2016)
(emphasizing that courts should consider “all relevant factors . . . on a case-by-case basis,” including “the factual
and employment settings of . . . plaintiffs, the different defenses . . . , the degree of fairness and procedural impact
of certifying the action . . . , and whether plaintiffs have
made the appropriate filings with the EEOC”); McGlone
v. Contract Callers, Inc., 49 F. Supp. 3d 364, 367 (S.D.N.Y.
2014) (looking not to a single question of law or fact but

37a
rather “common questions of law and fact,” and specifically noting that courts typically consider the ad hoc factors). The majority leans most heavily upon the Ninth Circuit’s decision in Campbell v. City of Los Angeles, 903 F.3d
1090 (9th Cir. 2018), which contains broad language that
arguably supports the majority’s expansive “similarly situated” requirement. But while the Ninth Circuit disapproved of the ad hoc approach “as it is typically articulated,” even it clarified that it did not intend to “preclude
the district court[] from employing . . . a version of the ad
hoc test modified so as to account for the flaws” it had
identified. Id. at 1117, 1117 n.21.
To me, it seems obvious that an assessment of whether
plaintiffs are “similarly situated” requires the application
of an ad hoc test that leaves district courts free to consider
the myriad factors—including both similarities and dissimilarities—at play in a given case. See Zavala, 691 F.3d
at 537–38 (finding that the plaintiffs had failed to satisfy
the “similarly situated standard” because “[t]he similarities among the proposed plaintiffs are too few, and the differences among the proposed plaintiffs are too many”
such that there would be “minimal utility in streamlining
resolution of the claims”). Although the requirements under Rule 23 and § 216(b) are different, we have in fact recognized that the predominance inquiry under Rule 23 and
the “similarly situated” standard under § 216(b) are “admittedly similar.” See Myers, 624 F.3d at 556. A district
court should thus consider similarities such as “whether
the plaintiffs are employed in the same corporate department, division, and location; whether they advance similar
claims; whether they seek substantially the same form of
relief; and whether they have similar salaries and circumstances of employment.” Karlo v. Pittsburgh Glass
Works, LLC, 849 F.3d 61, 85 (3d Cir. 2017) (emphases
omitted) (quoting Zavala, 691 F.3d at 536–37). It should

38a
then weigh these against any dissimilarities, such as the
“disparate factual and employment settings of the individual plaintiffs” and “defenses available to defendants which
appear to be individual to each plaintiff.” Scott v. Chipotle
Mexican Grill, Inc., No. 12-cv-8333 (ALC) (SN), 2017 WL
1287512, at *8 (S.D.N.Y. Mar. 29, 2017) (quoting Hernandez v. Fresh Diet, Inc., No. 12-cv-4339 (ALC) (JLC), 2014
WL 5039431, at *3 (S.D.N.Y. Sept. 29, 2014)); see also
Zavala, 691 F.3d at 536-37 (“Plaintiffs may also be found
dissimilar based on the existence of individualized defenses.”). In weighing these factors, a court should consider “fairness and procedural considerations counseling
for or against collective action treatment.” Scott, 2017 WL
1287512, at *8 (quoting Hernandez, 2014 WL 5039431, at
*3. In my view, this standard more appropriately accounts
for the “flaws” identified by the court in Campbell while
still promoting efficient and just resolution of claims.
I am thus less troubled than the majority that “courts
facing parallel motions to decertify an FLSA collective action under § 216(b) and to certify a class action under Rule
23 have tended to allow either both actions or neither to
proceed on a collective basis.” Maj. Op. at 34 (quoting
Ruiz v. CitiBank, N.A., 93 F. Supp. 3d 279, 298-99
(S.D.N.Y. 2015)). While the two provisions are surely distinct, such an outcome would seem to be a natural result
of two statutes that allow for class treatment based on
some showing of similarity between plaintiffs. In sum, rather than being forced to certify a collective if plaintiffs
share a single common issue, the district court, with the
benefit of having reviewed volumes of record evidence after years of discovery, should be able to weigh the similarities and dissimilarities to determine if plaintiffs are
“similarly situated” such that the collective action mechanism is the appropriate vehicle for the claims at issue.

39a
II.
Having defined what I view as the appropriate standard, I also depart from the majority’s application of the
law to the facts here. While one can quibble with the propriety of the district court’s reference to the “sliding
scale” standard, it seems to me that the district court’s ultimate conclusion in this case was wholly justified. See
Farrior v. Waterford Bd. of Educ., 277 F.3d 633, 635 (2d
Cir. 2002) (upholding the district court’s decision where it
misstated the standard but properly analyzed the claims).
The district court cited the ad hoc factors “[t]o avoid conflating § 216(b) collective certification with Rule 23,” and
I see no evidence that its analysis was in fact driven by the
more stringent requirements of Rule 23. Scott, 2017 WL
1287512, at *8. Instead, the district court concluded that
despite the possibility that one could identify a common
issue among Plaintiffs, the similarities were superficial.
Its decision was supported by factual findings, and to my
mind at least, was not an abuse of discretion.
For all of these reasons, I would affirm the district
court’s ruling in all respects. I therefore dissent from Part
III of the majority’s opinion.

40a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

No. 12-CV-8333 (ALC) (SN)

MAXCIMO SCOTT, JAY ENSOR, MATTHEW
MEDINA, EUFEMIA JIMENEZ, KRYSTAL PARKER, STACY HIGGS, and CHRISTINE GATELEY,
on behalf of themselves all others similarly situated,
Plaintiffs,
v.
CHIPOTLE MEXICAN GRILL, INC.,
and CHIPOTLE SERVICES, LLC,
Defendants.

Filed: March 29, 2017

MEMORANDUM AND ORDER
CARTER, United States District Judge.
Plaintiffs Maxcimo Scott (“Scott”), Jay Ensor (“Ensor”), Matthew Medina (“Medina”), Eufemia Jimenez
(“Jimenez”), Krystal Parker (“Parker”), Stacy Higgs
(“Higgs”), and Christine Gately (“Gateley”) allege Fair
Labor Standards Act (FLSA) violations, and claims under
the New York Minimum Wage Act, N.Y. Lab. Law, art. 6
§190; art. 19 § 650 (NYLL), as well as parallel state laws

41a
in Missouri, Colorado, Washington, Illinois, and North
Carolina against Defendants Chipotle Mexican Grill Inc
(“Chipotle”).
On June 20, 2013, the Court granted Plaintiffs’ motion
for conditional certification of a collective action after limited discovery, and 516 plaintiffs opted in to the FLSA collective action. ECF No. 68. Plaintiffs now seek to certify
the following classes: all persons who worked for Chipotle
as apprentices (1) in Colorado, between April 25, 2012 and
the date of final judgment in this matter; (2) in Illinois,
between April 25, 2011 and the date of final judgment in
this matter; (3) in Missouri, between February 13, 2011
and the date of final judgment in this matter; (4) in New
York, between November 15, 2006 and the date of final
judgment in this matter; (5) in North Carolina, between
April 25, 2012 and the date of final judgment in this matter; and (6) in Washington, between April 25, 2011 and the
date of final judgment in this matter. Chipotle seeks to
decertify the collective action and opposes Plaintiffs’ class
certification motion.
I. BACKGROUND
Chipotle operates more than 2,000 restaurants
throughout the United States. Defendants’ Memorandum
of Law in Support of Motion to Decertify (“Defs.’ Mem.”)
at 3, ECF. No. 1099. Chipotle management positions include General Managers (“GM”), Apprentices, Service
Managers (“SM”), hourly Kitchen Managers (“KM”) and
hourly Crew Members (“CM”). Id. Apprentices are employed in a temporary position and train to be general
managers of new stores. Memorandum of Law in Support
of Motion for Class Certification (“Pls.’ Mem.”) at 3, ECF
No. 1095 . Chipotle’s singular job description for Apprentices nationwide charges Apprentices with:

42a
(i) leading the restaurant’s team in successful day-today operations; (ii) acting as GM when GM is not present; (iii) training and developing the team, especially
KMs and SMs; (iv) ensuring that employees are
properly paid, receive appropriate benefits, and are
prepared for additional career opportunities; (v) identifying talent, interviewing, and hiring new Crew;
(vi) participating in personnel decisions regarding the
restaurant team; (vii) writing schedules that meet the
needs of the business so that a great customer experience is delivered while maintaining financial responsibility; (viii) assisting the GM in performing administrative duties including payroll, inventory, food ordering, proper cash handling; (ix) building sales and managing the restaurant’s budget; (x) assisting with local
restaurant marketing opportunities; (xi) handling employee or customer complaint; and (xii) ensuring that
safety and security standards within the restaurant
are adhered to
Schwartz Decl., Ex. 84 (“Apprentice Job Description”) at
1, ECF No. 1106. In 2011, Chipotle hired an expert to
evaluate the classification of Apprentices as exempt or
non-exempt employees in accordance with labor laws.
Pls.’ Mem. at 6. To that end, Chipotle’s consultant conducted an assessment of Apprentices’ primary duties by
gathering testimony from four Apprentices. Id. at 7. After
assessing only four Apprentices, the consultant concluded
that the employment position “as a whole” should be exempt, due in part to the fact that Apprentices have the
“same responsibility” nationwide. Id. Indeed, Chipotle
transfers Apprentices without providing additional job
training. Id. at 8. Chipotle then classified all Apprentices
outside of California as exempt employees not eligible of
earning overtime pay. Murphy Decl., Ex. 1 (“Compendium”) ¶¶ 20-21, ECF No. 1106. Chipotle Apprentices are

43a
guaranteed an annual salary of $38,000 to $51,000 to train
as managers and supervise SMs, KMs, and CMs. Id. Apprentices may also earn an annual bonuses based on eligibility criteria. Id.¶ 22.
In keeping with its practice of categorizing Apprentices as exempt employees, Chipotle reviews Apprentices’
performance on a form entitled “Restaurant Management
Performance Review.” Id. ¶12. The form assesses
whether an Apprentice successfully hires, develops, and
promotes “their people,” “train[s] and develop[s] Crew
into successful KMs and SMs,” creates a “culture that rewards constant improvement,” and “lead[s] with enthusiasm and optimism.” Id. ¶¶ 13-14. Other areas of performance review evaluates an Apprentice’s ability to “setting
clear direction” in the store, “maintaining high standards,” and creating new ways to “run their restaurant.”
Id. ¶ 115.
While Chipotle has several corporate policies that uniformly categorize an Apprentice, the record evidence
shows that a number of factors impact Apprentices’ daily
activities. Id. ¶¶ 26-27. For example, the management
structure at locations are varied. Id. ¶¶ 28-30. Some
Chipotle locations have a GM, some locations have a Restaurateurs who rotate among locations, and other locations have no GM or Restaurateur and are managed solely
by Apprentices. Id.
The sales volume of a particular Chipotle location also
impacts the daily activities of an Apprentice. Id. ¶¶ 38-39.
Stores vary in daily sales ranging from $4,000 to $13,000
which fluctuate based on hours of operation and location.
Id. Increased sales results in an increase in the number of
staff. Id. Additional staff requires a change in daily activities such interviewing, hiring, disciplining, training, evaluating, and supervising. Id.

44a
II. DISCUSSION
A. Rule 23 Motion for Certification of State Law
Classes
In Teamsters Local 445 Freight Div. Pension Fund v.
Bombardier Inc., the Second Circuit set forth the following standard regarding class certification:
(1) a district judge may certify a class only after making determinations that each of the Rule 23 requirements has been met;
(2) such determinations can be made only if the judge
resolves factual disputes relevant to each Rule 23 requirement and finds that whatever underlying facts
are relevant to a particular Rule 23 requirement have
been established and is persuaded to rule, based on
the relevant facts and the applicable legal standard,
that the requirement is met; and (3) the obligation to
make such determinations is not lessened by overlap
between a Rule 23 requirement and a merits issue,
even a merits issue that is identical with a Rule 23 requirement.
546 F.3d 196, 202 (2d Cir. 2008) (citations and alterations
omitted). “The party seeking class certification bears the
burden of establishing by a preponderance of the evidence
that each of Rule 23’s requirements have been met.”
Johnson v. Nextel Commc’ns Inc., 780 F.3d 128, 137 (2d
Cir. 2015). “Federal Rule of Civil Procedure 23(a) permits
a case to be litigated as a class action only if (1) the class
is so numerous that joinder of all members is impracticable; (2) there are questions of law or fact common to the
class; (3) the claims or defenses of the representative parties are typical of the claims or defenses of the class; and
(4) the representative parties will fairly and adequately

45a
protect the interests of the class.” Id. (citation and internal quotation marks omitted).
B. Rule 23(a) Commonality and Typicality
Chipotle argues that Plaintiffs failed to meet the commonality requirement of Rule 23(a)(2). See Memorandum
of Law in Opposition To Class Certification (“Defs.’ Oppo.
Mem.”), at 27-30, ECF No. 1107. “A question of law or fact
is common to the class, if the question is capable of classwide resolution—which means that its truth or falsity will
resolve an issue that is central to the validity of each one
of the claims in one stroke.” Johnson, 780 F.3d at 137 (citations, alterations, and internal quotation marks omitted). This burden “may be satisfied if plaintiffs demonstrate that the class members have suffered the same injury.” Id. (citations, alterations, and internal quotation
marks omitted). However, Rule 23(a)(2) does not demand
that all classwide claims be identical, commonality is met
when the resolution of issues “will affect all or a significant
number of the putative class members.” Id. “Where the
same conduct or practice by the same defendant gives rise
to the same kind of claims from all class members, there
is a common question.” Id. (citations, alterations, and internal quotation marks omitted).
Here, the question of whether Apprentices were misclassified as exempt employees is common to all class
members because it can be answered with common proof.
See Youngblood v. Family Dollar Stores, Inc., No. 09CIV-3176 (RMB), 2011 WL 4597555, at *2 (S.D.N.Y. Oct.
4, 2011). First, the record evidence shows that Chipotle
uniformly classified all Apprentices as exempt, and made
that business decision after only assessing four employees
work duties . Schwartz Decl., Ex. 168 (“Daggett Tr.”) at
80-84, ECF No. 1106. Also convincing is the fact that
Chipotle has an “expectation [] that the core duties of the

46a
apprentice is the same” regardless of the market in which
an Apprentice works. Schwartz Decl., Ex. 111 (“Moore
Tr.”) at 91, ECF No. 1106. As a result, Chipotle does not
even gather individualized evidence from an Apprentice
upon relocation to determine whether the Apprentice
should remain exempt. Id. Further, Chipotle uses a single
job description for all Apprentices that lists “principal accountabilities”. Apprentice Job Description at 1. Such a
uniform description “is unquestionably probative” of
whether an employee is properly classified as exempt.
Damassia v. Duane Reade, Inc., 250 F.R.D. 152, 156
(S.D.N.Y. 2008).
There is no evidence that the opt-in plaintiffs would
raise questions of law that differ from the representatives
of the six state law classes. Defendants are adamant that
Chipotle’s blanket classification, singular job description,
and nationwide policies are irrelevant. Defs.’ Oppo. Mem.
at 27. Defendants contend that the Court should instead
focus on the individual testimony of the class members,
which shows Apprentices are given discretion to deviate
from corporate policies and guidelines which results in
varying duties actually performed by Apprentices. See id.
at 28-30. However, the differences in the actual job duties
of Apprentices are “better suited to the predominancy inquiry discussed infra, together with an analysis of the
Rule 23(b)(3) factors.” Jacob v. Duane Reade, Inc., 289
F.R.D. 408, 415 (S.D.N.Y.), on reconsideration in part, 293
F.R.D. 578 (S.D.N.Y. 2013). Plaintiffs have shown that
commonality exists among the class members by a preponderance of evidence.
Chipotle also argues that Plaintiffs failed to establish
the typicality requirement in Rule 23(a)(3). Defs.’ Oppo.
Mem. at 30-32. Rule 23(a)(3) “requires that the claims of
the class representatives be typical of those of the class,

47a
and is satisfied when each class member’s claim arises
from the same course of events, and each class member
makes similar legal arguments to prove the defendant’s
liability.” Marisol A. v. Giuliani, 126 F.3d 372, 376 (2d
Cir.1997) (citations and internal quotation marks omitted). As discussed, Plaintiffs’ claims are based on the same
legal theory and factual predicates-that Chipotle misclassified Apprentices which deprived those employees of
overtime wages guaranteed by law. Therefore, typicality
is satisfied.
C. Rule 23(b)(3)
1. Predominance Inquiry
Chipotle argues that Plaintiffs’ motion for certification
does not satisfy the Rule 23(b)(3) predominance requirement. Defs.’ Oppo. Mem. at 32-40. Plaintiffs have the burden to show that “ the questions of law or fact common to
class members predominate over any questions affecting
only individual members, and that a class action is superior to other available methods for fairly and efficiently
adjudicating the controversy.” Fed. R. Civ. P. 23(b)(3).
“Like the commonality inquiry, a court examining predominance must assess (1) the elements of the claims and
defenses to be litigated; and (2) whether generalized evidence could be offered to prove those elements on a classwide basis or whether individualized proof will be needed
to establish each class member’s entitlement to relief.
Predominance requires a further inquiry, however , into
whether the common issues can profitably be tried on a
classwide basis, or whether they will be overwhelmed by
individual issues.” Johnson, 780 F.3d 128 at 138 (citations
and internal quotation marks omitted).

48a
Regarding the first step, litigating the claim of employment misclassification under FLSA requires application of Labor Department guidelines which exempts “executive” employees who are:
(1) Compensated on a salary basis pursuant to
§ 541.600 at a rate per week of not less than the 40th
percentile of weekly earnings of full-time nonhourly
workers in the lowest-wage Census Region (or 84 percent of that amount per week, if employed in American
Samoa by employers other than the Federal government), exclusive of board, lodging or other facilities.
Beginning January 1, 2020, and every three years
thereafter, the Secretary shall update the required
salary amount pursuant to§ 541.607;
(2) Whose primary duty is management of the enterprise in which the employee is employed or of a customarily recognized department or subdivision
thereof;
(3) Who customarily and regularly directs the work of
two or more other employees; and
(4) Who has the authority to hire or fire other employees or whose suggestions and recommendations as to
the hiring, firing, advancement, promotion or any
other change of status of other employees are given
particular weight.
29 C.F.R. § 541.100(a)(l)-(4).1 Thus, the question of
whether Chipotle Apprentices were misclassified is a

29 C.F.R. § 541.102 describes management duties as: “activities
such as interviewing, selecting, and training of employees; setting and
adjusting their rates of pay and hours of work; directing the work of
employees; maintaining production or sales records for use in supervision or control; appraising employees’ productivity and efficiency
1

49a
“mixed question of law and fact” that can only be resolved
“by examining the employees’ actual job characteristics
and duties.” Myers v. Hertz Corp., 624 F.3d 537,548 (2d
Cir. 2010) (citations omitted).
The evidence before the Court does not show that “primary job duties are the same everywhere” as Plaintiffs
claim, Pls.’ Mem. at 8, and many citations to record evidence were misleading or incorrect. It is true that Apprentices ‘ range of managerial tasks such as employment
decisions, scheduling, inventory, performance evaluations
were similar. It is also true that Apprentices’ range of
manual labor tasks such as working the line, serving customers, prepping, grilling, and running the register were
similar. However, “individualized proof will be needed to
establish each class member’s entitlement to relief . . . .”
Johnson, 780 F.3d 128 at 138. The named Plaintiffs’ testimony, which were internally inconsistent and distinguishable from one another, shows this defect in Plaintiffs’ motion. See Ruiz v. Citibank, N.A., 93 F. Supp. 3d 279,291
(S.D.N.Y. 2015).
Scott asserted that he did not have “any say” in hiring,
Murphy Decl., Ex. 84 (“Scott Tr.”) 30:8-31:7, ECF No.
1101, claimed he had no role in developing employees, id.
133:16-134:8, and rarely prepared work schedules, id.
for the purpose of recommending promotions or other changes in status; handling employee complaints and grievances; disciplining employees; planning the work; determining the techniques to be used;
apportioning the work among the employees; determining the type of
materials, supplies, machinery, equipment or tools to be used or merchandise to be bought, stocked and sold; controlling the flow and distribution of materials or merchandise and supplies; providing for the
safety and security of the employees or the property; planning and
controlling the budget; and monitoring or implementing legal compliance measures.

50a
141:4-142:2; 281:4-1. Scott testified he performed mostly
Crew responsibilities and “was never considered the
boss.” Id. 180:20-24. However, at other times Scott admitted that his duties included hiring, performance evaluations, and scheduling. Id. 100:11-18; 134:25; 281:14.
Jimenez spent a majority of time “on the floor” serving customers which included prepping, grilling, and making salsa. Schwartz Decl., Ex. 155 (“Jimenez Tr.”) 233:2024, ECF No. 1106. However, Jimenez also stated she was
promoted from Apprentice to GM because she was “running a good store” and spent “three or four days out of the
week” marketing her store to local businesses. Id. 108:1925; 109: 1-6.. In addition, Jimenez admitted that she made
hiring recommendations, Murphy Decl., Ex. 51 (“Jimenez
Tr.2”) 51:3-10; 62:23; 63:21; 125:12-17, ECF No. 1101;
drafted employee schedules, id. 52:13-53:4; 134:3-19; and
helped with overall store budgeting. Id. 143:2-5.
Higgs made effective hiring and termination recommendations, Murphy Decl., Ex. 49 (“Higgs Tr.”) 104:18105:18, ECF No. 1101 ; trained employees, id. 65:7-13;
provided feedback to employees, id. 177:6-15; created
weekly schedules, id. 64:13-14; controlled the labor
budget by sending employees home early, id. 148:15149:19; made task assignments, id. 76:20-77:13; 209:13212:22; and completed performance evaluations, id. 189:28. Yet, Higgs maintained that she spent seventy to eighty
percent of her time “working on the line, making burritos,
running the register and preparing food.” Schwartz Decl.,
Ex. 153 (“Higgs Tr. 2”) 202:11-25, ECF No. 1106.
Ensor also performed many managerial tasks including: conducting independent interviews, making hiring
recommendations, supervising employees, training subordinates, writing schedules, and completing performance evaluations. Murphy Decl., Ex. 39 (“Ensor Tr.”)

51a
60:3-14; 129:22-24; 163:4-9; 219:10-18; 353:4-354:15; 140:625; 161:6-15; 164:2-18; 270:8-24, ECF No. 1101. In fact,
Ensor had managerial authority over restaurant employees at all times as an Apprentice. Id. 407:25-410:11. However, Ensor’s duties also included daily food preparation
and “on the line helping customers” which he characterized as a “substantial part of [his] day.” Schwartz Decl.,
Ex. 147 (“Ensor Tr. 2”) 407:25-410:11, ECF No. 1106.
Gateley only assumed a leadership role when her GM
was absent, relied on her GM to discipline subordinates,
and had no role in terminations. Murphy Decl., Ex. 40
(“Gateley Tr.”) 67:10, ECF No. 1101. Yet Gately interviewed candidates and made hiring recommendations, id.
84:23-85:23; drafted schedules, id. 123:5-11; and maintained her stores budget, id. 60:15-61:10.
Medina interviewed new employees, made termination recommendations, drafted schedules, completed evaluations of subordinates, and coached employees.
Schwartz Decl., Ex. 160 (“Medina Tr.”) 76:8-80:10, ECF
No. 1106. Yet, Medina maintained that “maybe like 90%
of the time” he performed duties that fell outside the Apprentice job description such as “working tortillas, rolling
burritos, working on the grill, cutting chicken, steak, making rice, cleaning bathrooms, throwing trash, doing
dishes, working as a cashier, expo, linebacker.” Id. 301:719.
Parker (i) had no role in training, Murphy Decl., ECF
No. 1101 Ex. 74 (“Parker Tr.”) 68:15-25; 138:13-20;
(ii) rarely, if ever, prepared schedules, id. 11:21-12:20;
102:7-14; 145:15-146:6; (iv) had no authority to deviate
from the posted schedule, id. 164:2-24; (v) never participated in the evaluation process, id. 169:22-170:18; and (vi)
could not issue discipline, id. 155:17-156:24. Parker spent

I

52a
less than 5% of her time as an Apprentice engaged in exempt activities, id. 17:2-19; 97:11-15; 98:25-99:7; 139:2-20,
summarizing her duties as “rolling burritos, frying chips,
prepping onions, lettuce, cutting up everything, but I’m
not actually managing anybody. I can’t manage the front
of the house and the back of the house if I’m rolling someone’s burritos.” Id. 180:3-8.
Notwithstanding the internally inconsistent testimony
among the named Plaintiffs, the opt-in Plaintiffs are not
similarly situated to their representatives. To compare
the groups, the Court assumed arguendo, that the named
plaintiffs’ testimony regarding managerial tasks was harmonious, and still, the opt-in plaintiffs’ testimony rang dissonantly from the record.
a) Personnel Decisions
DOL regulations categorize several personnel tasks as
managerial such as interviewing, hiring, and disciplining
subordinates. See 29 C.F.R. § 541.102. Many Apprentices
played a significant role in personnel decisions by meeting
with applicants and making hiring recommendations to
higher management. Murphy Decl., Ex. 8 (“Anthony Tr.)
67:2-68:12; Ex. 55 (“Larson Tr.”) 35:25-36:4; Ex. 53
(“Kaise Tr.”): 33:2-3; Ex. 32 (“Doran Tr.”) 43:11-44:15; Ex.
15 (“Betancourt Tr.”): 30:2-7; Ex. 25 (“Connor Tr.”) 70:1221, ECF No. 1101. Some Apprentices conducted interviews and made hiring decisions without the need for approval by higher management. Id. Ex. 61 (“Masdin Tr.”)
85:2-22; Ex. 87 (“Simoes Tr.”) 46:17-22; Ex. 43 (“Gomula
Tr.”) 99:9-100:12; Ex. 76 (“Perez Tr.”) 66:23-67:20, 150:719; Ex. 14 (“Berry Tr.”) 51:25-52:23. In contrast, other Apprentices testified that they had no involvement
Chipotle’s hiring process. Id. Ex. 72 (“Ortega, V. Tr.”)

53a
33:8-16; Ex. 30 (“Diaz-Vega Tr.”) 66:14-67:7; Ex. 93 (“Winfrey Tr.”) 70:15-22; Ex. 21 (“Chan Tr.”) 59:12-25; Ex. 15
(“Betancourt Tr.”) 106:25-107:9, 126:8-1.
Many Apprentices testified they disciplined or recommend discipline hourly employees, for improper behavior,
performance problems, or failure to comply with directives. Id. Anthony Tr. 69:16-71:3; Chan Tr. 64:5-13; Larson Tr. 45:4-17; Masdin Tr. 105:25-107:2; Perez Tr. 187:18188:11; Ex. 57 (“Link Tr.”) 60:6-61:10; Ex. 73 (“Ortiz Tr.”)
82:2-10; Ex. 36 (“Eich Tr.”) 113:4; Ex. 32 (“Doran Tr.”)
46:18-47:9; Ex. 59 (“Lovato Tr.) 122:5-14; Ex. 77
(“Ramirez Tr.”) 81:17-83:19; Ex. 82 (“Rosario Tr.”)
130:15-22, 134:10-135:8. Several other Apprentices did not
discipline subordinates or did so only after approval from
higher management. Id. Berry Tr. 90:11-14; Betancourt
Tr. 118:9-15; Diaz-Vega Tr. 76:23-77:22; Eich Tr. 89:16-23;
V. Ortega Tr. 72:16-73:8; Winfrey Tr. 83:16-84:9; Ex. 16
(“Breenden Tr.) 146:19-148:18; Ex. 28 (“Curtis Tr.”)
101:10-23; Ex. 19 (“Casillas Tr.) 86:13-15; Ex. 35 (“Durkin
Tr.) 115:21-24; Ex. 67 (“Morgan Tr.) 82:5-15; Ex. 71 (“A.
Ortega Tr.”) 88:17-23; Ex. 91 (“Villanueva Tr.) 70:16-71:1;
Ex. 48 (“Herrera Tr.”) 112:12-20.
b) Scheduling Authority
DOL regulations provide that “setting and adjusting
[employees] rates of pay and hours of work” constitutes a
managerial duty. 29 C.F.R. § 541.102. Some Apprentices
prepared and disbursed schedules without even needing
approval from higher management. Murphy Decl., Ex. 78
(“Rivera Tr.”) 65:12-66:10; Ex. 87 (“Simoes Tr.) 67:13-18;
Ex. 75 (“Penaranda Tr.) 70:7-19; Ex. 63 (“Milligan Tr.)
52:11-19, 55:11-56:1, ECF No. 1101. Other Apprentices
prepared schedules that were rewritten by higher management. Id. Berry Tr. 14:25-15:11; Betancourt 30:18-22,
111:12-15, 129:5-12; Breenden Tr. 131:13-132:9, 207:23-

54a
208:11; Diaz-Vega Tr. 74:25-75:15; V. Ortega Tr. 53:354:11, 55:6-56:4; Ex. 43 (“Gomula Tr.) 59:24-60:8; Ex. 68
(“Moschini Tr.) 38:15-39:14; Ex. 81 (“Rommel Tr.”) 60:1361:22, 88:4-13. While many Apprentices did not perform
this managerial task, because they did not believe they
had the authority to do so. Id. Costello Tr. 43:17-44:19;
Durkin Tr. 41:15-42:13; A. Ortega Tr. 62:15-64:11;
Ramirez Tr. 50:18-52:2, 71:4-72:11; Ex. 55 (“Larson Tr.)
37:10-24.
c) Employee Supervision and Training
Training subordinates and supervising their tasks are
considered management responsibilities. See 29 C.F.R.
§ 541.102. Many Apprentices acknowledged they supervised hourly employees at their Chipotle location. Murphy
Decl., Breenden Tr. 59:17-21; Chan Tr. 31:19-23, 73:10-16,
89:3-21, 92:2-25, 166:16-20; Costello Tr. 53:22-57:19; Curtis Tr. 41:2-42:14; Eich Tr. 49:22-50:15, 69:19-72:16; Kaise
Tr. 16:5-14, 72:9-18; Larson Tr. 93:1-4; Masdin Tr. 163:13165:24; Milligan Tr. 84:11-25; A. Ortega 49:5-25, 50:2151:11, 54:21-25, 67:14-25, 68:2-69:15, 91:18-92:6; Ortiz Tr.
71:24-7, 73:20-74:24, 77:21-78:7; Rivera Tr. 39:7-12,
156:14-157:4; Simoes Tr. 49:19-50:15, 123:10-17, 175:21178:8, 194:4-8; Ex. 75 Penaranda Tr.49:12-50:5, 60:3-10;
Perez Tr. 16:4-20; Rosario Tr. 53:5-19, ECF No. 1101.
Some Apprentices even described supervision as their
“primary duty”. Id. Curtis Tr. 69:25-70:8; Diaz-Vega Tr.
53:7-24; Eich Tr. 40:21-42:16, 69:19-72:16; Larson Tr. 52:17; Milligan Tr. 84:11-25; A. Ortega Tr. 49:5-25, 50:21-51:11,
70:4-17, 70:23-71:25, 84:18-85:3, 92:9-15, 103:3-9, 107:24108:11, 108:18-109:7; Perez Tr. 163:9-13; Rivera Tr. 148:617; Rosario Tr. 187:21-190:12, 194:16-23, 195:6-196:197:3;
Simoes Tr. 175:21-178:8.
Chipotle’s “shoulder-to-shoulder” training required
Apprentices to work on the food preparation line with

55a
hourly employees and perform non-managerial tasks. Id.
Ex. 66 (“Moran Tr.) 194:20-195:22. However, several Apprentices acknowledged that they still supervised hourly
employees while working on the food preparation line. Id.
Anthony Tr. 38:16-39:23, Curtis Tr. 41:2-42:14; Masdin Tr.
163:13-165:24; Casillas Tr. 97:12-98:11; Diaz-Vega Tr.
105:12-23; Eich Tr. 69:19-72:16, Kaise Tr. 72:9-18; Chan
Tr. 31:19-23, 89:3-21; Connor Tr. 145:21-146:24, 173:20175:22, 176:13-23; Rivera Tr. 128:14-129:2, 140:15-141:17,
156:14-157:4; Simoes Tr. 175:21-178:8; Costello Tr. 53:2257:19, 67:15-21, 72:2-11; Doran Tr. (Ex. 32): 77:23-80:23, A.
Ortega Tr. 68:2-69:15, 70:23-71:25; Penaranda Tr. 161:20162:20, 163:9-164:3, 177:18-178:14; Perez Tr. 119:13120:13, 189:12-191:5; Berry Tr. 126:15-127:11.
e) Factors Affecting The Amount Of Time
Spent On Managerial Tasks
The record evidence shows that the differences in the
structures of Chipotle locations, sales volume, and managerial styles across the country affected the amount of
time Apprentices’ spend performing managerial tasks.
The Chipotle Compliance Director testified that:
Every single [restaurant] is different. When we open,
when we close, how many hours we operate in any
given day, whether there is inclement weather,
whether it’s a new store opening, whether we have a
full slate of managers or we do not . . . whether we are
closing for some reason because of a structural problem. All of those things contribute to what an apprentice might do in a given day . . . or any given week . . . .
Gottlieb Tr., Ex. 44 84:6-18. Chipotle locations have different store structures nationwide. Some stores have a GM,
some have a Restaurateur with responsibility for up to 4
stores (splitting time among them), while other stores

56a
have no GM or Restaurateur and are managed solely by
one or two Apprentices. These structural differences impact the amount of time Apprentices serve as the highestranking manager on duty, their supervisory and management functions, the authority they exercise, and the time
spent on tasks. Chipotle locations have varying sales volume nationwide. Daily revenue from Chipotle locations
across the country ranges from $4,000 to $13,000. Increased sales results in an increase in the number of staff.
Plaintiffs testified that additional staff required them to
devote more time to activities such as interviewing, hiring,
disciplining, training, evaluating, and supervising, than
was necessary in a low-volume store. The individual Plaintiffs in Colorado, Illinois, Missouri New York, North Carolina, and Washington did not perform the same work,
thus proof of their claims will not overlap. See Wal-Mart
Stores, Inc. v. Dukes, 564 U.S. 338, 352 (2011). The proposed classes in this case are unlike the class in Jacob v.
Duane Reade, Inc., where a sufficient degree of homogeneity existed among convenience stores in New York City
and its surrounding metropolitan area. 289 F.R.D. at 422.
The nationwide Chipotle Apprentices are also different
than those in Youngblood v. Family Dollar Stores, Inc.,
where convenience store managers in New York State adhered to corporate policies set forth in “minute detail”
which removed any doubt that the class satisfied the predominance inquiry. 2011 WL 4597555, at *5.
The disparate accounts from Apprentices proves fatal
to the predominancy inquiry. Accordingly, Plaintiffs have
failed to meet their burden of showing that the question
of whether all Apprentices were misclassified is subject to
generalized proof as required by Rule 23(b)(3).

57a
2. Superiority
In determining whether to grant class certification,
the Court should also consider “the difficulties likely to be
encountered in the management of a class action.” Rule
23(b)(3). Plaintiffs failed to address the difficulties likely
to be encountered in this class action involving laws from
six states, by merely asserting that “the claims of potential class members in all six states are identical.” Pls.’
Mem. at 39. However, the state law claims are not “identical.” Indeed, Colorado and Washington have strict percentage limitations governing how much time an employee can spend on non-exempt activities. See COL.
CODE REGS. 1103-1.5(b) (less than 50% under executive
exemption); R.C.W. §§ 296-128-510(5), 520(4) (less than
40% for executive and administrative exemptions). Meanwhile, Illinois allows for a special penalty if Chipotle is
found liable. See 80 I.L.C.S. § 105/4a.
Further, due to the level of inconsistencies among the
Plaintiffs’ testimony, the need for individualized proof
would require the Court to “ conduct a series of mini-trials
in order to determine, for each participant, whether the
delay in the award of benefits was unreasonable.” Dunnigan v. Metro. Life Ins. Co., 214 F.R.D. 125, 142 (S.D.N.Y.
2003).
Therefore, the Court finds that a collective action consisting of nationwide Apprentices from six states is not a
superior method for resolving Plaintiffs’ claims.
D. Motion for Decertification of Collective Action
Chipotle filed a motion to decertify the FLSA collective action pursuant to § 216(b) of FLSA. Defs’ Mem. at
20-39. Courts in this district employ a “two-step method”
in determining whether to certify a FLSA collective action. Myers, 624 F.3d at 555. “The first step involves the

58a
court making an initial determination to send notice to potential opt-in plaintiffs who may be similarly situated to
the named plaintiffs with respect to whether a FLSA violation has occurred.” Id. (citations and internal quotation
marks omitted). The second step, at issue here, requires
the Court to review a fuller record, and determine
“whether the plaintiffs who have opted in are in fact similarly situated to the named plaintiffs.” Id. (citations and
internal quotation marks omitted). To avoid conflating
§ 216(b) collective certification with Rule 23, courts in this
district consider: “(1) disparate factual and employment
settings of the individual plaintiffs; (2) defenses available
to defendants which appear to be individual to each plaintiff; and (3) fairness and procedural considerations counseling for or against collective action treatment” to determine whether the opt-ins are similarly situated to the
named plaintiffs. Hernandez v. Fresh Diet, Inc., No. 12CV-4339 (ALC) (JLC), 2014 WL 5039431, at *3 (S.D.N.Y.
Sept. 29, 2014).
1. Disparate Employment Settings
“[C]ourts have recognized that the “similarly situated” analysis for the purposes of FLSA certification can
be viewed, in some respects, as a sliding scale. In other
words, the more opt-ins there are in the class, the more
the analysis under § 216(b) will mirror the analysis under
Rule 23.” Indergit v. Rite Aid Corp., 293 F.R.D. 632, 651
(S.D.N.Y. 2013) (citations, alterations, and internal quotation marks omitted). A comparison of the named plaintiffs
with the opt-ins, as noted above, shows that Apprentices
had vastly different levels and amounts of authority in exercising managerial tasks.
The disparities in job duties in this case seems axiomatic considering that the 516 opt-in plaintiffs worked at
37 states across Chipotle’s nine geographic regions.

59a
Murphy Decl., 2. Indeed, opt-in plaintiff, Lauren Kelsch
(“Kelsch”), worked as an Apprentice in Oregon and Kentucky, and testified about the differences in locations.
Murphy Decl., Ex. 54 (“Kelsch Tr.”) 11:17-24; 13:11-25;
14:22-15:6; 22:21-24, ECF No. 1101. Kelsch worked under
a GM in Oregon who limited her leadership responsibilities. Id. 72:12-22. In Kentucky, however, Kelsch had no
GM and was able to “impact the workforce” and had more
of an opportunity to “lead” because she was “running the
restaurant” and “made all the decisions for the restaurant.” Id. 37:21-38:10; 44:19-22. Kelsch had “overall responsibility” for the Kentucky location and agreed her
promotion to GM was simply a “salary change” since she
“did everything the whole time [she] was there.” Id. 51:815; 76:8-77:6; 78:9-79:12. Kelsch also explained that the
two work settings were also different with regard to:
(i) the budget; (ii) payroll and wages; (iii) responsibility
over inventory which became “a much more . . . active
role”; (iv) termination decisions, which grew from no authority to complete authority; (v) promotions, which grew
from none to providing the main recommendation; (vi) her
role in the “financial success of the restaurant”; and
(vii) the amount of time she spent performing tasks Crew
could perform, which decreased from 85-90% of her time
to only 30%. Id. 64-68.
2. Defenses and Procedural Fairness
Chipotle anticipates arguing that some Apprentices
are exempt under the “executive” exemption and that others are exempt under a combination of the “executive”
and “administrative” exemptions, as contemplated by 29
C.F.R. § 541.708. Defs.’ Mem. at 36. “Available defenses
and procedural fairness go hand-in-hand, as the efficiency
gained by holding one trial as opposed to many cannot be
obtained at the expense of a defendant’s due process

60a
rights.” Indergit, 293 F.R.D. at 649 (citations, alterations,
and internal quotation marks omitted). The myriad of accounts from opt-in plaintiffs and named plaintiffs weighs
against certification of the collective action, because it
would be difficult for Chipotle to rely on “representative
proof’’ while asserting its defenses as noted above. Stevens v. HMSHost Corp., No. 10-CV-3571 (ILG) (VVP),
2014 WL 4261410 at *7 (E.D.N.Y. Aug. 27, 2014). “To find
otherwise would reduce Section 216(b)’s requirement that
plaintiffs be ‘similarly situated’ to a mere requirement
that plaintiffs share an employer, a job title, and a professed entitlement to additional wages.” Ruiz, 93
F.Supp.3d at 300. Indeed, if a jury were to determine that
one Apprentice is properly classified as exempt in Washington under the executive or administrative exemptions,
it does not follow that all Apprentices would be exempt
across the country. See lndergit, 293 F.R.D. at 650.
Accordingly, the Court decertifies the collective action
and the claims of the opt-in plaintiffs are dismissed without prejudice.
III. CONCLUSION
Plaintiffs’ proposed classes do not have common questions of law or fact that predominate over individual questions, therefore Plaintiffs’ motion to certify six classes under the state laws of New York, Missouri, Colorado, Washington, Illinois, and North Carolina is DENIED. Given
that the opt-in plaintiffs are not similarly situated, Defendants’ motion to decertify the collective action under
FLSA is GRANTED. The claims of the opt-in plaintiffs
are DISMISSED without prejudice. The clerk of the Court
is directed to terminate ECF Nos. 1071, 1072, and 1073.
SO ORDERED.

61a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 18-359
Maxcimo Scott, on behalf of himself and all others
similarly situated, Jay Francis Ensor, Christina Jewel
Gateley, Krystal Parker, Stacy Higgs, Eufemia
Jimenez, Matthew A. Medina,
Plaintiffs-Appellants,
Marvins Georges, Francisco Mayorga, et al.,
Plaintiffs,
v.
Chipotle Mexican Grill, Inc., Chipotle Services, LLC,
Appellees.
Filed: June 1, 2020
ORDER
Appellees, Chipotle Mexican Grill, Inc., and Chipotle
Services, LLC, filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
Catherine O’Hagan Wolfe, Clerk

62a
APPENDIX D
List Of Opt-In Plaintiffs
Marvins Georges, Francisco Mayorga, Katherine Flanagan, Leah Turner, Jose Rafael Lopez, Justin Grazuna,
Chris Haller, Michael Carver, Michael Dmytryk, Mark
Dannemiller, Ashley Pamplin, Anthony Barton, Brittney
Miller, Jayson Goldstein, Amanda Marks, Michael
Hamilton, Joseph F. De Mayo, Matthew Flanders, Sarah
O. Strong, Stephen Preisiglle, Mark A. Wilson, Shawn T.
Kurtz, Shakira Hawthorne, Suzanne Anderson, Edmar
Soares Simoes, Jesus Hernandez, Lisa Johnson, Jose A.
Santiago, Joshua Coban, Marquice Marrero, Nelson Jovel
Aguedo Dejesus, Kelli Winick, Natalia Barker, Luz B.
Henriquez, Shawn Green, Johnny Gasper, Russell Fliddy,
Emily Gjertson, Kevin Callahan, Ronald E. Consello, Jr.,
Alesia Williams, Stacy R. Pena, Alma Pulido, Andrew J.
Hirsch, Theodore R. Jackson, Jr., Dawn Akason, James
Lee Perkins, Iii, Zaida Ortiz, Maria Valenzvela, Nicole
Watts, Derek A. Gassaway, Eric Buttner, Elizabeth Diaz,
Sarah Valderrama, Mandy L. Mcloughlin, Jeremy A.
Reese, Ali Sheppard, Maribel M. Maher, Steffrin R.
Winfrey, Brian D. Rogers, Veronica Wells, Robert
Stedem, Javier Valerio, Danielle Rourke, Corey Pauley,
Christine M. Svorec, Heather Fansher, Michael T. Leach,
Rosalie Merrill, (Maleroni), Biviana Espinoza, Angelica
Ortega, Dustin Schreiber, Spencer Parker, Sara Murray,
Scott Rieger, Edward Wright, Gene Kay, Randy James
Dean, Kevin Zarley, Corey Turnbull, Ivan Olivares,
Javier Villegas, Sandra K. Stewart, Luz Martinez Acosta,
Kerstina Caggiano, Edward Triplett, Candice Vancamp,
Leonardo Cerqueira, Brandon Keller, Brandon W. Doran,
Carlos E. Flous Auraya, Glenn Shank, Chad Kinsworthy,
Bernardu Escobar Perez, Jaime Saona, Jason Gilbert,

63a
Brandon Womack, Rachael Casciano, Russell Behrman,
Patricia Ann Moody, Andrew Kais, Bratsson E. Pinto,
Sergio Danico Juarez, Ricardo Garcia, Iah Marols, Shane
Barton, Jose Perez, Benjamin D. Howard, Adam Sherris,
Roberta Factor, Jonathan Marvin, Rachel Spalth, Matt
Rommel, Denise Tatom, Edward Bobb, Jhonson Morillo,
Nathaniel J. Camacho, Crystal Berry, Socorro Jimenez,
David Eich, Maria Murzado, Robert Farmer, Kristy
Bowen, Kristin Lombardi, Tanner L. Renninger,
Maricela Ventura, Tara Wood, Laura K. Ortega Perez,
Jason Leib, Marvez Alegria, Claribel Vega, Reginald
Dove, Jr., Christopher Bassford, Jonathan Streetman,
Maria A. Arguelles, David Ordonez, Meagan U. Crowe,
Alberto Mendoza Chavez, Josh Venverlon, Steven H.
Stowe, Eric Rios-Ferman, Marc Linaman, Ana M.
Jimenez, Jessica Villegas, James Townsend, Jacob
Duncan, Alex D-B Poon, Daniel Barber, Kellie
Schoeneman, Erin Durkin, Guillermo Martinez, Jr.,
Dewayne Gardner, Jenine Meisner, Laura Knight,
Joshua Dameron, Jr., Ross Arce, Shakira Freeman,
Camnle Burnevik, Vanessa Acevedo, Brandon Gillissie,
Kevin Stecke, Angela Wickeif, Susan C. Strunk, Christian
Armenta, Mathew Kreuzer, Lena M. Famulano, Donnell
Harris, Nicole Faulkner, Carlos Fernandez, Brian Allen
Mora, Matthew Mcgowan, Vladimir S. Garrido Biagetti,
Brittany Dowell, Tony Hernandez, Iii, Stephen W. Roberts, Hannah E. Voyten, Stacy M. Johnson, Joshua
Leonor, Rachael Jack, Robert C. Shoup, Shara L.
Matlock, Shantelle Oliver, Miguel Martinez, Amy Tullis,
Andrew Hettinger, Megan Macintyre, Ian Sampson,
Deniene Gorey, Vanessa Gonzalez, Arthur Baker,
Charlotte R. Maxwell, Aaron Horner, Anna Dillon, Paul
Bissett, Kayla Newsom, Amanda Fisher, Alexander
Daniels, Gage Benson, Cory Tsev, Ivan Ruiz, Rudy
Nunez, Shadd Melchiorre, Omar Gutierrez, Oridio

64a
Castro-Delcid, Rudy Vilchis, Cordell Godfrey, Heather
Richards, Julissa Douville, Chelsea E. Fields, Ronaldo
Alvarez, Jackie Loudermilk, Claudia E. Taylor, Derek Ian
Cantwell, Leticia Quintero, Jera L. Pennington, Matthew
T. Donis, Ryan M. Cassler, Angela Gesario, Scott Taft,
Reyna C. Cruz, Darrell Ward, Daniel Argo, Megan A.
Murray, Matthew Sauers, Elizabeth Hopkins, Barboa
Caesar, Shelly M. Stinson, Justin Breeden, Reyna M.
Ryes Larios, Jennifer Curtis, Jessa Anderson, Jesse
Wooten, Gabriel O. Guralieros, Scott Meister, Frendira
Gomez, Daniel Neff, Danette Rodriguez, Johnny
Maldonado, Adam Direisdorf, Jessica L. Kaczmarek,
Michael Beer, Joel Mayo, Meghan L. Close, Melissa
Martinez, Givonte Huey, Adam Davis, Dusttin Nicholson,
Robert Mccann, Gabriel White, Jonathan Bouyer,
Michael S. Moschini, Julie Anne Cortizo, Aubry Baird,
Brittany Swa, Veronica Menchen, Netanel Gutt, Carmen
M. Diaz, Roberto Gout, Ben Camarone Garr, Meaghan
Mcclugaia, Grocaielo Hernandez, Roberta Okuadjo,
Karismarie Niedzwiecki, Scott Ramr, Emily Edgar,
Laura Ibarra, Eric Lewis, Jose A. Sanchez-Pena, Derek
Case, Karli Kopietz, Carlos Romero, Darrell Anderson,
Kristian Pi, Melissa Alvarado, Robert O. Smith, Paul A.
Andorfer, Elizabeth H. Gomula, Jeffrey A. Mobley,
Joshua Middendorf, Kayla M. Davis, Chris Perry, Andres
Quinones, Rowana Anthony, Maria Reyes, Zachary Sanford, Sandra Church, Tony Lachel, Milton Chamberlain,
Iii, Andrew Mcialwain, Sarah Elizabeth Wills, Jason
Leverenz, Erika Mah, Arguro Ramon, Scott Mumford,
Fernando Barreto, David R. Perruchon, Uri Antonio
Aguilar, Joseph Deivecchio, Mark B. Paetz, Shenise Williams, Carla M. Carrabbia, Stephanie Portillo, James
Bittner, Soraya Kanou, Martha Rodriguez, Kevin Chan,
Richmond C. Frison, Andria Larson, Victoria Gutierrez,
Russell A. Caratanuto, Franko Merino, Edith Sigaran,

65a
Marina Tayama, Rachel Norris, Ciara L. Huru, Tracie
Shaltuck, Holly Kennell, Mark Giordano, Michael Pringle,
Jessica Garcia, Verenice Galvain, Maylin Lee Schofield,
Genifer Gelman, Ramon A. Ramos, Steven Halstead,
Steven Moo, Nichole R. Hundley, Darlene Nichols, John
Thomas Gonzalez, Cole Holman, Johnathan Morris,
Daniel Ferrie, Kristen King, Amanda Pastore, Miriam
Bautista, Donna Lee Johnson, Joanny Alvarez, Kyle
Yandenburgh, Alejandro Lopez, Kelsey Wright, Zakaria
Fessikh, Matthew Rowedda, Jonathon Wolak, Luis A.
Vega, Saias Martinez Mondragon, Marcos Mcadoo,
Rebecca Damphousse Plant, Monica Garcia, Danielle
Engle, Eric Lund, Josh Paetz, Jimmy Tucker, Amanda
Henry, Jessica Davies, Robyn Yeager, Kalinda Flores,
Jose R. Ortega, John M. Fear, Jamie Lamb, Juvenal
Vargas, Oscar Pereira, Kyle Fennessey, Chelsey
Nicastro, Carlos Alexi Avalos Granados, Heather Dornhecker, Patrice Derflinger, Marta Serrato, Dennis Miguel
Ordonez-Ramos, Ramon Alonso, Josie Hall, Lydia Pieper,
Raul Cruz, Michael J. Wood, Erick Medina, Carrie
Swanson, (Clemetson), Keisler Baquiran, Brittney
Alston, Gabriel Vasquez, Nicole Davis, Kelly Palecek,
Daniel Howling, Luis Vidal, Kristin Vates, Alexandra
Neal, Richard Butcher, Isela Hernandez, Norma P.
Morales, Stephani Twidell, Jose Raul Barrios, Darryl
Milledge, Scott M. Costello, Kenneth J. Stacy, Nicholas
Tellez, Sean Sullivan, Jeff Hable, Krystal Beining, Lorena
A. Chaparro, Aran Castillo, John J. Holland, Mark A.
Gajda, Marisol I. Tellez, Dustin Roberts, Steven
Hastings, Jeffrey E. Rupard, Joanna Williams, Ryan
Christopher Furst, Abigail Vega, Wanda A. Hary,
Michael Price, Marissa Cooley, Cruz Flores, Matthew
Werner, Gregorio Castillo, Ramel Crespo, Anthony
Esquivel, Octavio Mora, Jacob N. Wilde, Christian Rocha,
Jason A. Simon, Nicole Recco, John Joycesummerfeld,

66a
Nathan Fenwick, Michael Berlad, Jorge Lopez, Eua
Angel, Marisol Ramirez, Kelly Nitzsche, Emily A. Carr,
April Leah Miller, (Delsol), Karl Hasendehrl, Isabel
Pritchett, Ryan Mcintyre, Anhara Rolon Yanez, Adam
Christian, Eustolia Medina, Patricia Villanueva, Merideth
Elbrecht, John Underwood, Olguimar Rodriguez-Ramos,
Rosario Betancourt, Kristina R. Rodriguez, Melvin
Alvarez-Gregory, Kathryn Diaz, Moises Ruidias,
Nathaniel David Schnepple, Daniel Dalton, Roberto
Gomez, Dieshon Clark, Jonathan Popchoke, Matthew
Torno, Nicholas Dwyer, William Aviles, Ailin Reyes,
Abraham Moraga, Jesus Ortegon, Christopher Aaron
Armstrong, Luis Vicencio, Chun W. Yu, Alma Delia
Calderon Velazquez, Appolonia Perez, Steven Roper,
Robert Strausbaugh, Lovana Taylor, Alexis L. Martinez,
Martha Lorenzo Morales, Jose Hernandez-Miranda,
Lauren Kelsch, Seaven Cayson, Reggie Coverson, Steven
Cramp, Sarah L. Meyer-Allen, Cassandra Malak, William
Collins, Norma Ortega, Kyle Richun, Emilee Calhoun,
Mike Stelzer, Mortimer Cadogun, Raul Ruiz, Jr., Raul
Lovato, Luis Alonso Ortegon, Christina Hollingshead,
Adan Castillo Ramos, Eric Low, Vania Vasquez, Jonathan
R. Nichol, Joe Rostyne, Jannelle Kirkwood, Kofi
Bossman, Natanael Diaz Portillo, Tara M. Gentry,
Christina G. West, Gerald V. Labensky, Jr., Freddy A.
Diaz Vega, Sara Garner, Michael Ringle, Felipe Navarro,
Parithan Kungsuvvan, Joseph Jacobs, Alexandria Ramas,
Sarah Noah, Jonathan M. Hays, Robert J. Gallagher,
Renee Pope-Macedo, Kathryn Armstrong, Nicole
Perkins, Michelle Herrera, Luis Torres, Ii, Amber L.
Fortson, Brandon Morgan, Vidalia Flores Trujillo, Sarah
Pape, Joel Gosnell, Viviana Henriquez, Amie Myers,
David Noel, Andrew Paolinetti, Adelina Sanchez, Wayne
Charles Franz, William R. Downard, Milagros M. De La
Fuente, Bridgett Thomas, Jose Jacobs, William I. Lake,

67a
Crystal Torres, Ernest M. Diaz, Shalett Doxie, Shalett
Dovie, Brian P. Howell, Jossep Diaz, Jason Kern, Maddie
Brennan, Joe Dettlo, Melissa Sosa, Eva Angel, Lourdes
P. Flores, Ana Delgodilla, Tiara Hughes, Roxana
Morales, Freddie Ahumada, Anthony Manco, Laura
Ybarra, Carlos Fraguada, Peter C. Delgado, Brittany
Link, Jose Villafranco, Consuelo V. Perez, Jose Ramirez,
Ana Pimentel, Bonnie Buss, Kevin Scott, Graciela
Escobar, Mortimer Cadogan, Thomas Blake Dodson,
William R. Meyer, Ryan Tracy, Brian Short, Rafael
Escalante, Joseph Rostyn, Ana Luisa Vidal, John E.
Hejduk, Thomas Werner, Ashley P. Green, Michael
Ierina, Kate Kuzmeskus, Ernesto Baldelamar, Carmelo
Mendez, Jr., Omar Casillas, Jacob Major, Kai Clark,
Rodis Najarro, Maria Rosa, Mark A. Turner, Trista P.
Tague, Yvette Dodge, Corey Yeauger, Hans Richter,
Joshua Gottlob, Alyssa Ashley Chisholm, Bryce Handy,
Gabriel Carrion Vellejo, Alfredo Cuate Briones, Ana
Maria Heredia, Ana Laura Sanchez Infante, Jaime
Manzo, Jason Lis

